<html>
<title> - THE FAIR HOUSING ACT: REVIEWING EFFORTS TO ELIMINATE DISCRIMINATION AND PROMOTE OPPORTUNITY IN HOUSING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    THE FAIR HOUSING ACT: REVIEWING
                  EFFORTS TO ELIMINATE DISCRIMINATION
                   AND PROMOTE OPPORTUNITY IN HOUSING

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-12
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-395 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>                   
   


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             PETER T. KING, New York
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
WM. LACY CLAY, Missouri              BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            SEAN P. DUFFY, Wisconsin
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANN WAGNER, Missouri
BILL FOSTER, Illinois                ANDY BARR, Kentucky
JOYCE BEATTY, Ohio                   SCOTT TIPTON, Colorado
DENNY HECK, Washington               ROGER WILLIAMS, Texas
JUAN VARGAS, California              FRENCH HILL, Arkansas
JOSH GOTTHEIMER, New Jersey          TOM EMMER, Minnesota
VICENTE GONZALEZ, Texas              LEE M. ZELDIN, New York
AL LAWSON, Florida                   BARRY LOUDERMILK, Georgia
MICHAEL SAN NICOLAS, Guam            ALEXANDER X. MOONEY, West Virginia
RASHIDA TLAIB, Michigan              WARREN DAVIDSON, Ohio
KATIE PORTER, California             TED BUDD, North Carolina
CINDY AXNE, Iowa                     DAVID KUSTOFF, Tennessee
SEAN CASTEN, Illinois                TREY HOLLINGSWORTH, Indiana
AYANNA PRESSLEY, Massachusetts       ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JOHN ROSE, Tennessee
ALEXANDRIA OCASIO-CORTEZ, New York   BRYAN STEIL, Wisconsin
JENNIFER WEXTON, Virginia            LANCE GOODEN, Texas
STEPHEN F. LYNCH, Massachusetts      DENVER RIGGLEMAN, Virginia
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 2, 2019................................................     1
Appendix:
    April 2, 2019................................................    57

                               WITNESSES
                         Tuesday, April 2, 2019

Furth, Salim, Senior Research Fellow, Mercatus Center, George 
  Mason University...............................................    11
Goldberg, Debby, Vice President, Housing Policy and Special 
  Projects, National Fair Housing Alliance.......................     4
Hill, Cashuana, Executive Director, Greater New Orleans Fair 
  Housing Action Center..........................................     6
Johnson, Kierra, Deputy Executive Director, National LGBTQ Task 
  Force..........................................................     8
Olsen, Skylar, Director, Economic Research, Zillow Group.........     9

                                
                                APPENDIX

Prepared statements:
    Furth, Salim.................................................    58
    Goldberg, Debby..............................................    75
    Hill, Cashuana...............................................   108
    Johnson, Kierra..............................................   118
    Olsen, Skylar................................................   124

              Additional Material Submitted for the Record

Clay, Hon. Wm. Lacy:
    Written responses to questions for the record from Debby 
      Goldberg...................................................   130
Garcia, Hon. Jesus ``Chuy'':
    2013 Report of the Equal Rights Center and the National 
      Council of La Raza entitled, ``Puertas Cerradas Housing 
      Barriers for Hispanics''...................................   139
Porter, Hon. Katie:
    Written responses to questions for the record from Cashauna 
      Hill.......................................................   170
Tlaib, Hon. Rashida:
    Detroit Free Press article entitled, ``Few black people get 
      home mortgages in Detroit, data show,'' dated March 22, 
      2019.......................................................   172
Dean, Hon. Madeleine:
    NPR article entitled, ``For Low-Income Victims, Nuisance Laws 
      Force Ultimatum: Silence Or Eviction,'' dated June 29, 2016   177

 
                    THE FAIR HOUSING ACT: REVIEWING
                  EFFORTS TO ELIMINATE DISCRIMINATION
                   AND PROMOTE OPPORTUNITY IN HOUSING

                              ----------                              


                         Tuesday, April 2, 2019

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the committee] presiding.
    Members present: Representatives Waters, Maloney, 
Velazquez, Meeks, Clay, Scott, Green, Cleaver, Himes, Foster, 
Beatty, Heck, Vargas, Lawson, San Nicolas, Tlaib, Axne, 
Pressley, Ocasio-Cortez, Wexton, Lynch, Adams, Dean, Garcia of 
Illinois, Garcia of Texas, Phillips; McHenry, Wagner, Lucas, 
Posey, Luetkemeyer, Huizenga, Stivers, Barr, Tipton, Williams, 
Hill, Zeldin, Loudermilk, Davidson, Budd, Kustoff, 
Hollingsworth, Gonzalez of Ohio, Rose, Steil, Gooden, and 
Riggleman.
    Chairwoman Waters. The Financial Services Committee will 
come to order. Without objection, the Chair is authorized to 
declare a recess of the committee at any time.
    Today's hearing is entitled, ``The Fair Housing Act: 
Reviewing Efforts to Eliminate Discrimination and Promote 
Opportunity in Housing.''
    I now recognize myself for 4 minutes for an opening 
statement.
    Good morning, everyone. Today, the committee convenes for a 
hearing on the Fair Housing Act to review efforts to eliminate 
discrimination and promote equal opportunity in housing.
    April is National Fair Housing Month, and last April marked 
the 50th anniversary of the Fair Housing Act, the landmark 1968 
legislation that outlawed housing discrimination. But here we 
are 51 years after the Fair Housing Act became law and housing 
discrimination remains a widespread problem in this country.
    According to the National Fair Housing Alliance, 
individuals filed 28,843 housing discrimination complaints in 
2017. Under the Trump Administration, fair housing protections 
are under attack.
    In 2018, HUD Secretary Ben Carson halted implementation of 
the Affirmatively Furthering Fair Housing (AFFH) Rule, an 
important rule finalized by the Obama Administration that 
provides communities with greater clarity on how to help break 
down barriers to fair housing opportunity, including by 
providing local authorities with better data to analyze their 
housing needs. According to news reports, Secretary Carson 
proposed taking the words, ``free from discrimination,'' out of 
HUD's mission statement. He also reportedly halted fair housing 
investigations and sidelined top advisers at HUD's Office of 
Fair Housing and Equal Opportunity.
    These are unprecedented attacks on fair housing and must 
not go unanswered. Let's not forget that Donald Trump and his 
father were once charged with violating the Fair Housing Act 
for discriminating against African-American and Puerto Rican 
renters. Given that Trump was engaged in housing discrimination 
himself, it is unsurprising that his Administration has been so 
hostile to fair housing protections.
    My bill, the Restoring Fair Housing Protections Eliminated 
by HUD Act, is designed to put protections that Ben Carson and 
the Trump Administration have diminished back in place. The 
legislation requires HUD to implement the AFFH rule as soon as 
possible, codifies HUD's mission statement in statute, and 
requires HUD to reverse other harmful actions the Trump 
Administration has taken to weaken fair housing.
    It is also important to recognize that as technology has 
evolved, so, too, have the ways that Americans are searching 
for and finding housing. A recent study found that 73 percent 
of all renters use online platforms to find housing. Regulators 
must be proactive in scrutinizing online platforms where 
housing is advertised to ensure that the algorithms and 
targeting tools are not been utilized to discriminate against 
minority groups.
    It is a positive development that, following public 
pressure from advocates, HUD reversed its decision to halt its 
investigation into Facebook and allowed HUD's Office of Fair 
Housing and Equal Opportunity to charge Facebook with violating 
the Fair Housing Act. However, much more must be done to ensure 
that digital platforms are not being used for housing 
discrimination.
    So I look forward to discussing these matters with our 
panel of experts and hearing their insights on fighting 
discrimination and ensuring that there are fair housing 
opportunities for every American.
    With that, I now recognize the ranking member of the 
committee, Mr. McHenry, for 5 minutes for an opening statement.
    Mr. McHenry. Thank you, Chairwoman Waters.
    Achieving fairness in housing entails several dimensions 
that should be a shared goal.
    The first is a legal requirement: our shared commitment to 
the elimination of discrimination in the sale, rental, and 
financing of housing, which Title VIII of the Civil Rights Act 
of 1968, the Fair Housing Act, made unlawful.
    Second, is the desire to promote opportunity in housing. 
Curiously, the phrase ``promote opportunity'' is not in the 
Fair Housing Act. In fact, the phrase ``equal opportunity'' is 
only mentioned once in the over-11,000 words of the Fair 
Housing Act, something I will touch on before I end.
    One last dimension is the concept of fairness: the very 
first section of the Fair Housing Act consists of a simple but 
perhaps inscrutable sentence, ``It is the policy of the United 
States to provide, within constitutional limitations, for fair 
housing throughout the United States.'' The Fair Housing Act 
deputized HUD to lead the effort to enforce the rules and 
prohibitions on local communities and provide landlords, 
sellers, and lenders alike rules and regulations with which 
they need to abide.
    Fifty years later, here is what we know. The efforts to 
eliminate the sort of discrimination contemplated by the Fair 
Housing Act, indeed the Civil Rights Act, is and continues to 
be an issue today, and we should not mistake the clear progress 
made on that front for success in the overall battle. There is 
still work to be done, and this hearing is a good opportunity 
to ask how the Fair Housing Act can be the best tool to advance 
fair housing in the 21st Century.
    The Fair Housing Act is focused on prohibiting certain acts 
but not necessarily promoting opportunity. If the goal is to 
build inclusive communities, you need both approaches to be 
successful.
    There is no single greater barrier to fair housing 
opportunities than poverty, yet it might surprise people to 
learn that the word ``poverty'' is not even mentioned once in 
the Fair Housing Act, nor is ``income.'' An increased focus on 
fighting poverty would help to promote opportunity.
    I am pleased that Secretary Carson has been talking about 
the need to develop incentives, not just punishments, at the 
local level to better design and align housing incentives, like 
opportunity zones which we passed into law just over a year 
ago. These opportunity zones will help low-income communities 
the most and that is the intention.
    Technology also can and must play a bigger role in how we 
approach building 21st Century communities. HUD simply cannot 
do its job by demanding an endless stream of thousand-page 
reports to monitor local development in New York or 
Philadelphia or Ashland, Wisconsin, or Asheville, North 
Carolina. Requiring local communities to spend months compiling 
lengthy reports and HUD officials to spend weeks reviewing them 
misses the mark. This approach is too heavy on process and 
devalues real, recognizable violations standards that demand 
prompt attention and resolution. Instead, we ought to have a 
system that prioritizes prompt action for all overt violations 
of the Fair Housing Act.
    In his remarks at the signing of the bill to create HUD, 
President Lyndon Johnson notes, ``Those who do not find new 
means to respond to new challenges will perish or decay.'' I 
concur. President Johnson nailed it with that statement back in 
1965, and I think that should be a mindset that we have on this 
committee, especially when it comes to housing policy.
    And with that, I thank Chairwoman Waters for having this 
hearing and I look forward to hearing from the panel.
    Chairwoman Waters. Thank you.
    The Chair recognizes the gentleman from Missouri, Mr. Clay, 
the Chair of our Subcommittee on Housing, Community 
Development, and Insurance, for one minute.
    Mr. Clay. Thank you, Madam Chairwoman.
    And I look forward to working closely with you as we fight 
to reform the housing finance system to ensure that underserved 
borrowers in our more challenged neighborhoods, like many of 
those in my hometown of St. Louis, have access to mortgages, 
insurance, and fair appraisals to give them a real chance at 
homeownership.
    Democrats are committed to upholding the Fair Housing Act 
and fighting for a housing market that is free from 
discrimination. The Fair Housing Act, passed in 1968, prohibits 
discrimination in the housing market, and requires State and 
local governments and other recipients of Federal housing 
funding to affirmatively further fair housing.
    In January of 2018, Secretary Carson arbitrarily halted 
implementation of the agency's Affirmatively Furthering Fair 
Housing rule. And in my role as subcommittee chair, I will be 
taking action to help restore the hard-fought fair housing 
protections that the Trump Administration has weakened.
    I yield back.
    Chairwoman Waters. Thank you.
    Today, we welcome a distinguished panel of witnesses to 
discuss issues around fair housing: Debby Goldberg, vice 
president, housing policy and special projects, National Fair 
Housing Alliance; Cashauna Hill, executive director, Greater 
New Orleans Fair Housing Action Center; Kierra Johnson, deputy 
executive director, National LGBTQ Task Force; Skylar Olsen, 
director of economic research, Zillow Group; and Salim Furth, 
Ph.D., senior research fellow, Mercatus Center, George Mason 
University.
    Without objection, all of your written statements will be 
made a part of the record. Witnesses are reminded that your 
oral testimony will be limited to 5 minutes; when there is one 
minute left, a yellow light will indicate that you should wrap 
up your testimony.
    Ms. Goldberg, you are now recognized for 5 minutes to 
present your oral testimony.

STATEMENT OF DEBBY GOLDBERG, VICE PRESIDENT, HOUSING POLICY AND 
        SPECIAL PROJECTS, NATIONAL FAIR HOUSING ALLIANCE

    Ms. Goldberg. Thank you, Chairwoman Waters, and good 
morning. And good morning to Ranking Member McHenry and the 
members of the committee, and thank you for the opportunity to 
testify here today.
    I am Debby Goldberg, vice president for housing policy and 
special projects at the National Fair Housing Alliance or NFHA. 
NFHA is the only national organization solely dedicated to 
eliminating housing discrimination in the U.S., and we work 
with our 200-plus members to achieve that goal through a wide 
variety of activities.
    I want to thank you, Chairwoman Waters and Congressmen 
Green and Clay and Congresswoman Beatty and many other members 
of the committee for the leadership and support for fair 
housing that you have shown over many years. Today's hearing 
looking at our efforts to eliminate discrimination and promote 
opportunity in housing is a great way to start Fair Housing 
Month. I hope it will help you identify some of our most urgent 
fair housing issues and some of the steps that you and Congress 
can take to address them.
    I want to flag two problems that are described in some 
detail in my written testimony that I don't have time to 
discuss this morning. One is the need to increase funding for 
our fair housing enforcement infrastructure. The other is our 
concern that HUD may effectively eliminate the Affirmatively 
Furthering Fair Housing or AFFH rule. This may be our most 
important tool for overcoming the last harms caused by racial 
segregation that our Federal Government helped to create.
    I urge you to look into both of these problems and I would 
be happy to answer your questions about them.
    Disparate impact is a tool that protects each of us from 
forms of discrimination that may be hidden or unintended, and 
are carried out through policies and practices that appear 
neutral, but have a disproportionately harmful effect on 
protected classes. Those include an array of policies that 
among other things make housing unavailable to families with 
children, force victims of domestic violence, most often women 
and their children, to choose between being safe and having a 
home, and prevent people in communities of color from getting 
mortgages or obtaining homeowner's insurance.
    HUD's disparate impact rule takes a measured approach to 
balancing the justifiable needs of housing providers with the 
harms of discrimination. The tool itself has been around nearly 
as long as the Fair Housing Act and is well-established policy 
with a long history of bipartisan support. It has been affirmed 
uniformly by Federal Circuit Courts as well as the Supreme 
Court.
    Despite all this, HUD plans to rewrite, and we fear 
dismantle, this important rule. We urge the committee to 
investigate HUD's plans for the disparate impact rule and to 
use its authorities to protect and preserve it.
    Finally, I would like to touch on an issue that has emerged 
as a new frontier in fair housing: the impact of the increasing 
use of technology, big data and artificial intelligence by 
housing providers. Problems in this space can be difficult to 
detect, as the data sets and algorithms used are often 
proprietary. Some have concluded wrongly that systems built on 
big data and sophisticated algorithms are objective and make it 
harder to discriminate. The truth is that if these systems rely 
on data that reflects historic biases deeply imbedded in our 
society, the systems themselves may discriminate: bias in, bias 
out.
    We have seen this in the mortgage market, where among other 
things, discriminatory credit scoring systems can pose a real 
barrier to homeownership and wealth building for people of 
color and others. We are also seeing problems surface in the 
way housing and related services are marketed.
    This is illustrated by a case that NFHA recently settled 
with Facebook. We alleged that Facebook's system for generating 
and delivering ads allowed providers to prevent members of 
protected classes--women with kids, people who speak Spanish, 
people with disabilities, people in specific neighborhoods, and 
others--from seeing a particular ad. If you never see the ad, 
you won't ever know what opportunities you have been denied.
    Facebook has agreed to change its ad portal to eliminate 
the possibility that advertisers for housing, employment, and 
credit can use protected characteristics to limit the 
distribution of their ads and to take other steps to eliminate 
discrimination on its platform. We look forward to working with 
Facebook in that process and hope that our settlement will be a 
model for others in this space. This too is an area that would 
benefit from further investigation by the committee, as well as 
steps to ensure that other laws such as the Communications 
Decency Act do not impinge on the protections provided under 
the Fair Housing Act.
    Thank you for the opportunity to testify here today, and I 
look forward to your questions.
    [The prepared statement of Ms. Goldberg can be found on 
page 75 of the appendix.]
    Chairwoman Waters. Thank you, Ms. Goldberg.
    Ms. Hill, you are now recognized for 5 minutes to present 
your oral testimony.

  STATEMENT OF CASHUANA HILL, EXECUTIVE DIRECTOR, GREATER NEW 
               ORLEANS FAIR HOUSING ACTION CENTER

    Ms. Hill. Good morning. My name is Cashauna Hill, and I 
serve as executive director of the Greater New Orleans Fair 
Housing Action Center. I would first like to thank you, 
Chairwoman Maxine Waters, for this opportunity to address the 
committee and to review GNO Fair Housing's efforts to live up 
to the mandate of the Fair Housing Act. I, along with my staff 
and our entire community, am immensely grateful for your 
consistent support on the issue of fair housing, and we have 
particularly appreciated your commitment to South Louisiana's 
recovery following Hurricane Katrina.
    I would also like to thank Ranking Member McHenry and all 
of the members of the committee for welcoming us here today to 
discuss full and effective enforcement of the Fair Housing Act.
    The Fair Housing Action Center is a non-profit civil rights 
organization established in 1995 to eradicate housing 
discrimination and segregation. I want to begin with a story of 
one of our clients to emphasize the real-life impacts of the 
protections afforded by the Fair Housing Act.
    In 2014, a nursing student named Marilyn was living in New 
Orleans and celebrating Christmas with her three-year old son. 
Marilyn had invited her son's father to visit the child over 
the Christmas holidays, however, the visit ended with him 
violently assaulting her. Marilyn was transported to the 
hospital for treatment while her ex was arrested. After her 
release from the hospital the next day, she returned home to 
find a notice on her door, letting her know that she was being 
evicted and would lose her home because of the complex's zero 
tolerance policy on domestic violence.
    Louisiana's landlord-tenant laws allow evictions with only 
5 day's notice, so Marilyn had just a few days to find a new 
home. When Marilyn found the Fair Housing Action Center, our 
attorneys on staff, partially funded by HUD's Fair Housing 
Initiatives Program, took her case for free. Our legal team 
discovered that Marilyn's landlord, a property management 
company with over 2,000 rental units in 3 southern States, 
required their tenants to sign leases agreeing that any 
participation in a domestic violence incident was grounds for 
eviction.
    To help Marilyn, the Fair Housing Action Center made use of 
a 2013 HUD rule and legal theory later upheld by the U.S. 
Supreme Court known as ``disparate impact.'' That theory holds 
that some policies that seem neutral, like the complex's zero 
tolerance policy, can unfairly exclude certain groups of 
people. In this case, the policy had a disparate impact on 
women, who are most likely to be victims in domestic violence 
incidents.
    After her case was settled, Marilyn continued to advocate 
for changes to Louisiana's State law to protect women in 
similar situations. Due to her efforts, together with GNO Fair 
Housing's policy staff and a statewide coalition of advocates 
and domestic violence survivors, the Louisiana legislature 
passed new protections for survivors in 2015. In addition to 
showing the impact that enforcement of fair housing laws can 
have on American families, Marilyn's story is important because 
chronic underfunding and delays in administration are 
jeopardizing our ability to enforce the Fair Housing Act. GNO 
Fair Housing's work to support Marilyn would not have been 
possible without the FHIP program.
    I would now like to turn briefly to Affirmatively 
Furthering Fair Housing. As the committee is aware, the Fair 
Housing Act was not implemented solely to prevent individual 
acts of discrimination, but also to address historic patterns 
of segregation. The Affirmatively Furthering Fair Housing 
process is essential because an overwhelming number of studies 
have shown that where you live determines much about how you 
will live and even how long you will live. As an example from 
New Orleans, life expectancies in two of the City's 
neighborhoods differ by more than 25 years. In the neighborhood 
in the shadow of the Superdome, a community that is more than 
90 percent black, the average resident lives only to the age of 
62. Meanwhile, in a community less than 3 miles away that is 
more than 90 percent white, the average resident lives to be 
88.
    In October of 2016, New Orleans completed the very first 
Assessment of Fair Housing, a new fair housing plan required 
under the Affirmatively Furthering Fair Housing Rule. GNO Fair 
Housing, with support from philanthropic partners, led the 
community engagement process for this plan, the transparent 
collaborative planning process resulted in unprecedented 
community input that produced comprehensive policy 
recommendations that provide a clear path forward and have 
since been lifted up as a model for the nation. Nowhere is the 
focus on Affirmatively Furthering Fair Housing more important 
than after life-altering disasters that change the face of 
entire cities and regions.
    As I close, I will note that 10 years after the storm, the 
City of New Orleans began to publicly discuss policies to 
address the gentrification that had already begun, and 
continues to displace many long-term neighborhood residents.
    For cities that are in the midst of recovery or will be 
from future disasters, we cannot afford to wait 10 years before 
beginning to consider the mandate of the Fair Housing Act. It 
instead must be a foundational part of disaster recovery. On 
behalf of the greater New Orleans Fair Housing Action Center, I 
truly appreciate the opportunity to offer this testimony and I 
will gladly answer any questions that you may have. Thank you.
    [The prepared statement of Ms. Hill can be found on page 
108 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Johnson, you are now recognized for 5 minutes to 
present your oral testimony.

    STATEMENT OF KIERRA JOHNSON, DEPUTY EXECUTIVE DIRECTOR, 
                   NATIONAL LGBTQ TASK FORCE

    Ms. Johnson. My name is Kierra Johnson, and I am the deputy 
executive director of the National LGBTQ Task Force. I want to 
thank the members of this committee for taking the time to 
address such a very important issue. As a bisexual person, I 
especially want to thank the committee for inviting a member of 
the LGBTQ community here today. It is rare for discussions on 
housing discrimination to center on the experiences of LGBTQ 
people, but it shouldn't be.
    Housing discrimination complaints are filed by LGBTQ people 
at a similar rate to race discrimination complaints filed by 
people of color. And approximately one in four transgender 
people in the U.S. has experienced some form of housing 
discrimination because of their gender identity. Courts and 
State and local legislators have worked to make housing 
protections for LGBTQ people more explicit, but still, 
protections are inconsistently applied and enforcement is even 
more unpredictable.
    There are real consequences when we fail in our duty to 
protect LGBTQ people. For example, nearly one-third of 
transgender people have experienced homelessness at some point 
in their lives, and while LGBTQ young people make up maybe 6 or 
7 percent of the general population, 40 percent of young 
people--40 percent--experiencing homelessness identify as 
LGBTQ.
    To be clear, people end up homeless not from a lack of 
trying, but because they are unable to find or keep housing. So 
again, as a queer person, I am appreciative to have been asked 
to be a part of this conversation. As a black queer mother of 
two, I am also disappointed that it is rare to center the 
experiences of queer people in conversations about housing.
    When the Fair Housing Act was passed in 1968, it promised 
protections from discrimination in housing on the basis of 
race, color, religion, and national origin. There wasn't an 
asterisk at the end of those protections. It didn't say all 
black people are protected unless you are a woman. It didn't 
say all Latinx people are protected unless you are living with 
a disability, and it didn't say all Muslim and Jewish people 
are protected unless you are gay. But in practice, people who 
wanted to discriminate sought out gaps in the law and they 
exploited them.
    A landlord could say, ``I am not racist, I just don't rent 
to unwed mothers.'' A mortgage broker could say, ``I am not 
anti-Semitic, I just think that with his disability, he is too 
much of a credit risk.''
    Congress has worked hard to close those gaps over the 
years. Since 1968, sex, disability, and familial status have 
been explicitly named in the FHA so that those don't function 
as gaps in the law, but there is still work to be done. I am a 
black queer woman with two beautiful, brilliant boys. When a 
landlord won't call me back or a bank won't approve a loan, I 
don't know if it is because I am black or because I went to see 
an apartment with my partner. I don't know if it is because I 
have two children or because I am a man; I just don't know. And 
if I try to challenge that decision, there is a good chance I 
will fail. The landlord knows that because sexual orientation 
isn't explicitly named in the law, there is a gap he can 
exploit, and the chances of him experiencing any consequences 
from his bias drops significantly.
    These are the cracks that the people you represent slip 
through, everyday people with dreams and families, 
responsibilities, and a human desire to live with dignity. 
There are answers to this. The Equality Act would protect LGBTQ 
people in housing. The Landlord Accountability Act would cover 
low-income people who have housing vouchers, and the Fair 
Chance at Housing Act would help formerly incarcerated people 
secure stable housing. I call on the members of this committee 
to think about what it means to leave these groups of people 
without explicit protections.
    Do we not care about black and brown people unless they are 
straight? Do we not care about women unless they have never 
been so hopeless as to commit a criminal act to survive? Do we 
not care about people with disabilities unless they have enough 
money not to need a housing voucher? I hope not.
    I thank you for the time you have given me today and the 
time you take to fight for these protections tomorrow.
    [The prepared statement of Ms. Johnson can be found on page 
118 of the appendix.]
    Chairwoman Waters. Thank you.
    Dr. Olsen, you are now recognized for 5 minutes to present 
your oral testimony.

   STATEMENT OF SKYLAR OLSEN, DIRECTOR OF ECONOMIC RESEARCH, 
                          ZILLOW GROUP

    Ms. Olsen. Chairwoman Waters, Ranking Member McHenry, and 
distinguished members of the committee, it is an honor to 
appear before you today at this important hearing. My name is 
Dr. Skylar Olsen, and I am the director of economic research at 
Zillow.
    Zillow Group was founded with the mission to improve 
transparency in the housing market and is dedicated to 
empowering consumers with data, inspiration, and knowledge 
around the place they call home. Zillow Group operates economic 
research teams at Zillow, Trulia, StreetEasy, and HotPads which 
leverage available data to produce timely and relevant economic 
research. We conduct regular analyses on the health of the 
market, which include housing market dynamics and forecasting, 
and also tackle specific issues of national interest such as 
declining housing affordability and homelessness. All of this 
research is publicly available.
    In addition, Zillow makes much of our aggregated data free 
and downloadable to the public and offers academics and 
government agencies a public record data set to support our own 
research. We see our role as using our data to help inform 
important conversations.
    In recent years, Zillow Group has published a growing body 
of research addressing existing disparities in the housing 
market. At a high level, our work demonstrates that housing 
inequities persist across the United States today as reflected 
in government-reported data, the amenities available in 
different communities, and in consumers' experiences in their 
search for housing. I would like to share some of that data 
with you today.
    I will start with homeownership, a key tool for building 
wealth. In the year 1900, the gap between black and white 
homeownership rates was 27.6 percentage points. In 2016, over 
115 years later, the gap was actually wider at 30.3 percentage 
points. At the same time, black borrowers are denied for 
conventional home loans at approximately 2.5 times more than 
that of white borrowers. Zillow data has also examined home 
value appreciation in neighborhoods that were historically 
redlined based at least in part on the racial composition of 
those neighborhoods. We found that those areas formerly deemed 
best and appropriate for lending are now worth 2.3 times those 
previously marked as hazardous and inappropriate for lending.
    Disparities are also visible in the amenities present in 
local communities. Trulia's research team, with input from the 
National Fair Housing Alliance and Ohio State University looked 
at four major metro areas: Atlanta; Detroit; Houston; and 
Oakland. This research found that predominantly non-white 
census tracts had 35 percent fewer traditional banking 
establishments, 38 percent fewer healthcare service 
establishments, and 34 percent fewer active or healthy 
lifestyle amenities such as parks, playgrounds, and recreation 
centers as compared to tracts that were predominantly white.
    Finally, we have also engaged in research on consumer 
experiences and perceptions. According to the Zillow Group 
Consumer Housing Trends Report, a nationally representative 
annual survey of consumer sentiment, home buyers of color were 
less likely than white buyers to say they were satisfied with 
all aspects of their home buying experience.
    Forty-three percent of white buyers reported full 
satisfaction, compared to only 27 percent of black, 24 percent 
of Hispanic, and 23 percent of Asian respondents. The survey 
also revealed that it takes more time for Asian, black or 
Hispanic home shoppers to have the rental application or offer 
accepted. On average Hispanic renters submit 5.5 rental 
applications and Black and Asian renters submit 3.6 before 
finding a rental home. This is compared with only 2.5 for white 
applicants.
    The perception of housing discrimination is also strong 
among U.S. adults. In a nationally representative survey 
conducted last fall, 27 percent of respondents said that they 
believe they have been treated differently in their search for 
housing because of their status in a protected group, including 
because of race, skin color, disability status, and others.
    Zillow Group believes that all Americans deserve to find a 
home free from discrimination in the process, yet these data 
points help illustrate the breadth of inequities and 
frustrations that many Americans still experience in their home 
search and in their communities.
    We appreciate the opportunity to share this research with 
the committee and hope it will help inform the committee's 
discussions on these important issues.
    [The prepared statement of Ms. Olsen can be found on page 
124 of the appendix.]
    Chairwoman Waters. Thank you.
    Dr. Furth, you are now recognized for 5 minutes to present 
your oral testimony.

   STATEMENT OF SALIM FURTH, PH.D., SENIOR RESEARCH FELLOW, 
            MERCATUS CENTER, GEORGE MASON UNIVERSITY

    Mr. Furth. Good morning, Chairwoman Waters, Ranking Member 
McHenry, and members of the committee. Thank you for giving me 
the opportunity to address you today. My name is Salim Furth, 
and I am a senior research fellow at the Mercatus Center at 
George Mason University, where I am co-director of the Urbanity 
Project. I study land use regulations that are barriers to 
opportunity. My comments today will focus on the details of the 
Affirmatively Furthering Fair Housing rulemaking.
    Contemporary American land use embodies the bad idea that 
private land use ought to be publicly planned. In practice, 
these plans routinely exclude low-income families by indirect 
means, causing income-based segregation.
    In this environment, how should Federal policymakers 
respond? They should resist the temptation to implement 
anything like nationalized or State-wide zoning. What they can 
and should do is amend the ways in which Federal policy 
interacts with local government to encourage and facilitate 
inclusion and to stop subsidizing extremely exclusionary local 
policies.
    In this spirit, my colleague and co-director Emily Hamilton 
and I submitted a public interest comment to HUD to suggest 
specific revisions to the AFFH rule. The 2015 AFFH rule is 
based in an important but vague admonition in the Fair Housing 
Act that, ``The Secretary shall act in a manner affirmatively 
to further the purposes of this subchapter.'' In layman's 
English, I take this to mean that HUD has to abide by the 
spirit of the law, not just the letter of the law.
    Exclusionary zoning seems like a clear example of 
government violating the spirit of the Fair Housing Act without 
technically discriminating against any protected class. HUD, 
under both the current and previous Administrations, seems to 
agree.
    But when HUD makes grants to localities that are actively 
fighting the construction of modest amounts of rental housing--
Cupertino, California, comes to mind--it is not Affirmatively 
Furthering Fair Housing. The 2015 AFFH rule, however, has not 
led to any change in HUD's grant- making behavior. Cupertino is 
in good standing and has received a Community Development Block 
Grant (CDBG) to rebuild some sidewalks.
    In the year and a half during which the 2015 AFFH rule was 
used by HUD, a pattern emerged: Entitlement communities would 
submit a long document. HUD staff would review and send it back 
for corrections. The document would grow even longer. When it 
was finally done, the entitlement community would be qualified 
to receive funding for the next 5 years. The documents 
typically contained analysis of segregation and demographics as 
well as some plans to improve policy. There were, however, no 
teeth, and I am unaware--perhaps people can correct me--of a 
single local policy that was changed as a direct consequence of 
this rule.
    Ms. Hamilton and I offer three principles for the revision 
of the AFFH rule: one, the rule should evaluate enacted 
policies and market outcomes, not plans; two, the rule should 
be easy to administer; and three, the rule should have real 
teeth.
    Following these principles promotes fair housing more 
effectively and with less wasted effort.
    The AFFH rule made lots of work for planners without taking 
seriously the elected decision-makers. HUD should reverse this 
emphasis. To be in good standing with HUD, jurisdictions should 
be able to point to market outcomes and enacted policies that 
are consistent with inclusion and strong property rights.
    Second, HUD ought to strive for ease of administration. By 
all accounts, an extraordinary amount of work went into 
preparing and evaluating the Fair Housing Assessments required 
by the AFFH rule. But do not mistake administrative burden for 
policy rigor. Standing in a long line at the DMV doesn't make 
you a better driver.
    Our final principle is that the AFFH rule ought to have 
real consequences, at least for egregiously exclusive grantees. 
How can the Secretary of HUD be acting affirmatively to further 
fair housing when he or she approves grants to jurisdictions 
that have high and rising rent, issue few housing permits, and 
are unwilling to change policy to allow more housing 
construction?
    There are many ways to put teeth into AFFH. The most 
obvious is for highly exclusionary jurisdictions to lose access 
to CDBG funds for a time. CDBG funds are the ideal carrot or 
stick because they are rarely used for housing. Under existing 
statute, however, this is difficult and would probably result 
in lawsuits. A softer set of teeth would be to require that 
CDBG funds in highly exclusionary jurisdictions be spent 
directly on low-income housing.
    In our public interest comment, Ms. Hamilton and I outlined 
one particular approach for the AFFH rule. But there are many 
ways to implement our principles. With the help of this 
committee, HUD can and should revise the AFFH rule to focus on 
enacted policies and market outcomes rather than plans, to ease 
the costs of administration and to have real financial 
consequences.
    Thank you.
    [The prepared statement of Dr. Furth can be found on page 
58 of the appendix.]
    Chairwoman Waters. Thank you, Dr. Furth. I now recognize 
myself for 5 minutes for questions.
    Ms. Goldberg, I am concerned that HUD and Congress are 
woefully behind when it comes to understanding housing 
discrimination. Today, an astounding 73 percent of renters find 
housing online and an even higher percentage of millennials do 
so. While technological advances have expanded access to 
knowledge and information, these innovations are enabling old 
discriminatory practices to flourish.
    Your organization recently settled its lawsuit with 
Facebook over the social media company's discriminatory 
targeting of advertisements. Just last week, HUD announced its 
own fair housing charges against the company. This was the 
first Secretary-initiated complaint for the Trump 
Administration even though previous Administrations regularly 
brought such cases. Reading the charges, the public may also be 
surprised to learn that HUD Secretary Carson originally halted 
this investigation when he took office.
    According to the charge, Facebook provided advertisers, 
including mortgage lenders, real estate agencies, and housing 
developers, with a map to exclude people who live in a 
specified area from seeing an ad by drawing a red line around 
the area. This is eerily familiar to when the Federal Housing 
Administration drew red lines around black and brown 
communities, systematically starving them of access to capital 
and lending. Today, it seems Facebook is enabling advertisers 
to write their own discriminatory maps and get paid to do so.
    What is troubling is that due to algorithmic black boxes, 
communities are not always well-positioned to know when this is 
happening, and accordingly to file complaints regarding online 
discrimination. Facebook is but one of the many new platforms 
online, and unfortunately HUD, under this Administration, which 
is in the position to enforce the law has to be shamed by fair 
housing advocates into investigating serious violations of the 
Fair Housing Act.
    How can we strengthen enforcement of the Fair Housing Act 
to ensure that there are safeguards online and that companies 
like Facebook comply with the law?
    Ms. Goldberg. Thank you for that question, Chairwoman 
Waters. I think there are a number of things that Congress can 
do. One is to increase funding for private, non-profit fair 
housing groups like the one that Ms. Hill next to me here runs 
that do investigations. We partnered with several of our 
members, not in New Orleans, but several others in doing our 
Facebook investigation.
    But resources are always scarce. These investigations take 
time and money and allocating more money to serve that purpose 
would be helpful.
    I would also add that HUD itself, in its Office of Fair 
Housing, needs more funding and more staff and greater 
resources in order to be able to carry out its responsibilities 
more effectively, one of which should be, along perhaps with 
several other Federal agencies that have a role to play in the 
regulation of technology in that space, being more proactive 
about looking at how these different platforms operate and 
whether or not the systems that they use are functioning to 
discriminate. As you know, if you can't see what is going on, 
if you don't know what the data say or the algorithms do, you 
don't know whether discrimination is happening. So, greater 
transparency, greater investigation, I think would be helpful.
    The other thing I want to underscore is something that was 
not particularly relevant to our Facebook case, but is an issue 
in other online platforms, which is the conflict that exists at 
the moment between the Communications Decency Act (CDA) and the 
Fair Housing Act, where courts have interpreted the CDA to 
trump the Fair Housing Act and allow for discriminatory 
advertisements to appear on certain platforms in the name of 
free speech. And we think that is a problem that really needs 
to be rectified. I don't think it was what was intended, but it 
is how it stands now.
    Chairwoman Waters. Thank you very much. Let me just follow 
up for a moment. Did Facebook admit and recognize and make some 
commitments to change?
    Ms. Goldberg. Yes. So, I don't believe that in the 
settlement, Facebook acknowledged doing anything wrong, as is 
typical of these kinds of settlements. But it did make a number 
of changes or commitments to make a number of changes including 
setting up a new portal for advertisements for housing credit 
and employment that will not have the discriminatory options 
that were on its platform in the past.
    It will also set up a portal where anybody, anywhere in the 
country, can look at the housing-related ads that have been 
posted. So, it gets us past this problem of, you never saw the 
ad because you weren't targeted for it.
    And in addition, because there are concerns about what 
happens after an ad has been developed, approved, and then gets 
to be delivered that even though we have taken some of the 
discriminatory options out of the ad targeting, that the 
algorithms may themselves generate additional discriminatory 
patterns, Facebook has agreed to work with us and a range of 
experts to study those patterns over time and take additional 
steps to correct it.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes the distinguished ranking member 
for 5 minutes for questions.
    Mr. McHenry. I think we all agree--I hope we all agree--
that we need the Fair Housing Act. So, let me just go across 
the panel and let us see if we can get some agreement here.
    Do you all agree that we need the Fair Housing Act? Ms. 
Goldberg?
    Ms. Goldberg. Absolutely.
    Mr. McHenry. Ms. Hill?
    Ms. Hill. Yes.
    Ms. Johnson. Yes.
    Ms. Olsen. Yes.
    Mr. Furth. Yes.
    Mr. McHenry. All right. Well, this is good. It is 
Washington, so we have to start with some sense of commonality 
where we can get it.
    So, do you believe that in order for the Fair Housing Act 
to work, we need effective tools to prevent discrimination to 
eliminate the practice, or rules to eliminate the practice of 
discrimination?
    Ms. Hill. Yes.
    Ms. Goldberg. Yes. I think that is one part of meeting the 
goals of the Fair Housing Act.
    Ms. Olsen. Yes.
    Mr. Furth. Yes.
    Mr. McHenry. Thank you.
    Mr. Furth, you outlined in a piece in October of last year 
entitled, ``Ben Carson's Approach to Affordable Housing Might 
Work''--one quote I pulled from there is, ``Carson's HUD 
suspended the Affirmatively Furthering Fair Housing Rule in 
2018 and plans to reframe it to challenge the exclusionary land 
use regulations of cities and counties that receive HUD 
funding. This approach is promising and represents an 
appropriate exercise of Federal power that restores property 
rights and hopefully will help to reduce poverty.''
    Dr. Furth, do you believe that the process that resulted in 
HUD's 2015 Affirmatively Furthering Fair Housing Rule was 
ineffective, and if so, why?
    Mr. Furth. So, I take your question to mean was the rule 
itself--
    Mr. McHenry. Was the 2015 rule ineffective, and if so, why?
    Mr. Furth. It appears to have been ineffective to me. Some 
people think we should have given it longer to operate before 
drawing that conclusion and reasonable people can differ on 
that point.
    But to me, it helped jurisdictions that wanted to be 
inclusive. So, if we look at the New Orleans Assessment of Fair 
Housing, it is great, it has lots of good of things and they 
tried to follow up on those policies.
    But if we look at communities that didn't want to be 
inclusive, it didn't force them to do anything other than fill 
out this report. So, they had to do a bunch of reporting and 
the staff had to make a lot of plans. But the staff plans don't 
bind elected officials. We have to take local self-government 
seriously. It exists.
    And these local decisions are made by elected officials who 
answer to their voters. They don't always make decisions that 
we agree with. And for HUD, at least HUD should say, if you are 
going to make decisions that are routinely exclusionary, we are 
not going to participate.
    Mr. McHenry. Okay. So, here is a question. Do current HUD 
rules take into account the cost of local land use regulations?
    Mr. Furth. No. In fact, I believe appropriations bills 
every year forbid HUD from taking zoning into account.
    Mr. McHenry. Okay. What effect does that have on the supply 
of affordable housing across the country?
    Mr. Furth. It is massive. If you look at especially coastal 
cities where there is a long history of very strict regulation 
of private land use rights, what we get is a few jurisdictions 
that have sort of a traditional stock of rental housing and 
they are willing to build more, not a lot more, but a little 
bit more.
    Mr. McHenry. Dr. Olsen, does the Zillow data--is that 
similar to what you have seen in the data if you have analyzed 
that component of your data?
    Ms. Olsen. Yes. I think in general, anyone who spends time 
studying housing markets and how they work and why we do or do 
not build recognize that a major barrier to adding housing to 
any community is land use zoning.
    So, to make a more tangible example, 75 percent of the City 
of Seattle is zoned for single- family only. It is generally 
easy across--
    Mr. McHenry. How does that compare to other localities?
    Ms. Olsen. That is pretty normal to have extensive single-
family zoning. The other practice that kind of comes through 
with land use regulations is that it is easy to add density 
where density already exists. So, places that kind of already 
have that element to it kind of get the more density, more 
rental apartments units and then you have these insular 
communities that are exclusionary that might have access to 
really great amenities like great schools where it is harder to 
add that density, and so it is harder for other communities to 
access.
    Mr. McHenry. So, to that point, this is about income 
segregation based off of this cost structure that local 
regulations bear out on the cost of housing?
    Ms. Olsen. That is implicitly how things net out at the 
end. It is basically new land, just current land use 
regulations, one way to think about it is that it reinforces 
historical redlining over time.
    Mr. McHenry. Okay. Thank you all for your testimony. I 
appreciate it.
    Chairwoman Waters. Thank you.
    The gentlewoman from New York, Ms. Velazquez, is recognized 
for 5 minutes.
    Ms. Velazquez. Thank you, Madam Chairwoman.
    Ms. Goldberg, thank you for the National Fair Housing 
Alliance's past support of my bill, the Sexual Harassment 
Awareness and Prevention Act. As you know, sexual harassment is 
a form of sex discrimination that is prohibited under the Fair 
Housing Act. However, every day across this country, residents 
in affordable housing programs face sexual harassment at the 
hands of landlords, property managers, and others in the 
housing industry.
    Can you speak to how affordable housing residents are 
particularly vulnerable to sexual harassment and misconduct and 
how they can often be left homeless because of it?
    Ms. Goldberg. Thank you for that question, Congresswoman. 
It is a terrible problem that people face. The supply of 
affordable housing that we have in this country is extremely 
limited. The National Low Income Housing Coalition estimates 
that only one out of every four households that is eligible for 
assisted housing actually receives that housing.
    And the housing in the private market, depending on where 
you are living, may or may not be affordable or affordable 
housing may or may not be available in any large numbers in the 
private market. And so, having a unit that you can afford is a 
very valuable thing that people are very reluctant to give up, 
because there is no guarantee that you are going to find 
another one. And that puts women in particular in a very 
vulnerable position.
    Ms. Velazquez. And can you speak to the fact that this is a 
problem that more than just women face? Can you explain how 
seniors and individuals in the LGBTQ community also face this 
threat? And I will ask Ms. Johnson to expand on it, too.
    Ms. Goldberg. Sure. I think you make a very good point, 
that this is not a--women may be the largest single category of 
people who experience this kind of discrimination but they are 
certainly not the only ones. And I will defer to Ms. Johnson to 
speak more on that.
    Ms. Johnson. Thank you. One of my colleagues actually said 
something that stuck with me. They said that deep poverty and 
homelessness felt to them like the stripping away of all of 
their choices in life.
    They had to take whatever job was available and hang on to 
it regardless of how degrading and demoralizing, especially 
when it was freezing cold or pouring rain. They had to sleep in 
whatever shelter was available regardless of whether that space 
was safe. They had to hide their inner light because living on 
the street meant constantly putting on a shroud of toughness. 
They had to fight to protect themselves. They had to steal to 
eat. They had to beg to survive.
    And I think this story, unfortunately, isn't a rare one. 
But it does point to when people don't have secure housing, 
when they are discriminated against in various ways, when they 
do find housing, whether it is safe or not, they stay, whether 
it is degrading or not, whether it is good for their children 
or not, they stay.
    And so, they are putting themselves and their families in 
precarious situations when affordable good quality housing 
isn't available.
    Ms. Velazquez. Thank you.
    Ms. Goldberg, while it is true that HUD does publish an 
annual report regarding complaints brought under the Fair 
Housing Act, this report is not detailed enough for Congress 
and the public to get a clear portrayal of the complaints 
brought alleging sexual discrimination or harassment.
    The discussion draft of my bill will require HUD to 
disaggregate this information in several ways including race, 
gender, family status, those with disabilities, and those who 
are elderly, as well as by the number of complaints filed by 
State, residents of certain housing programs, and the number of 
complaints that allege retaliation.
    How will these additional details help HUD address sexual 
harassment claims brought by residents?
    Ms. Goldberg. Having additional detail is always helpful 
because it lets us see where the problems really lie. And one 
of the points that you have sort of implied but not made 
explicitly that I think is really important is the 
intersectionality of some of these issues.
    People face discrimination for more than one of their 
characteristics, which can sometimes make it difficult to 
understand exactly what is going on. And so, having the kind of 
data that you are proposing in your legislation would really 
shine a light on what is going on and help us understand it 
better.
    I would say that we also need ways to make sure that people 
who may be subject to sexual harassment in housing know what 
their rights are and know how to pursue them and report them, 
because as we said, people feel very vulnerable. They are 
reluctant to come forward and complain because they are afraid 
they will be evicted.
    And so, I suspect that the number of incidents that we see 
even in the HUD data and the data that our members collect as 
well is probably, far under-represents what actually happens.
    Ms. Velazquez. I yield back. Thank you.
    Chairwoman Waters. The gentlewoman from Missouri, Ms. 
Wagner, is recognized for 5 minutes.
    Mrs. Wagner. I thank the chairwoman and I thank our 
witnesses for testifying today.
    It has been 51 years since the passage of the Fair Housing 
Act, and while many accomplishments have come from its 
enactment, there is still much work to be done to ensure its 
effectiveness. I know that Secretary Carson has turned his 
attention and full examination to the alleged redlining by 
Facebook. He has also, I know, expanded that in looking into 
Google and Twitter in this space.
    This question is for both Ms. Goldberg and Dr. Furth. Given 
that the medium for advertising the rental and sale of real 
estate has changed with trends towards Internet platforms and 
big data, how can we ensure that HUD has the tools, including 
advanced technology, to enforce the law as written?
    Ms. Goldberg. I would agree that HUD needs--I think this is 
implied in your question--more resources in order to really be 
able to understand, evaluate, and where necessary take action 
to enforce the Fair Housing Act with respect to the kinds of 
online platforms that you are describing and that is certainly 
what our case with Facebook illustrates.
    Mrs. Wagner. Thank you, Ms. Goldberg.
    Dr. Furth?
    Mr. Furth. I apologize, I have no expertise in this area 
and I defer to my co-panelists.
    Mrs. Wagner. Dr. Furth, let me ask you this question. In 
your testimony, and I will change subjects here, you listed 
three principles for the revision of HUD's 2015 Affirmatively 
Furthering Fair Housing Rule. One specific principle you 
mentioned is that the rule should have real teeth.
    What sort of changes do you believe would make this rule 
more enforceable and also result in better outcomes?
    Mr. Furth. My preferred change would be that communities 
that are extremely exclusionary--and we can debate exactly how 
to define that, but usually you know them when you see them--
should be for a time, a couple of years, or maybe a full 5 
years ineligible to receive Community Development Block Grants.
    I actually think having said this more since I wrote the 
public interest comment that that would actually require 
further legislation from Congress and that HUD cannot under 
current statute do that. That is what some lawyer friends have 
told me.
    So, I would certainly encourage the committee to consider 
giving HUD the ability or the instruction to live off places 
like Brookline, Massachusetts, or Cupertino, California, which 
are very wealthy, well-resourced communities that are 
essentially, through loopholes I would call them in the CDBG 
formula, receiving grants that are intended in statute to be 
used primarily for low- and moderate-income families, and they 
are using that to essentially subsidize a local regime of 
exclusion.
    Mrs. Wagner. I have worked with Congressman Al Green on the 
other side of the aisle in CDBG DR reform in some of these 
spaces. I look forward to advancing that legislation at some 
point.
    This rule was not established until 2015. What did 
communities do up until 2015? Did they operate without 
standards? Were communities free to do what they wanted?
    Mr. Furth. I think they are still free to operate without 
standards and do what they want. Up until 2015, there was a 
process called the analysis of impediments which was a similar 
but much lighter version, where the staff would sort of put 
together a little report about how fair housing might be 
blocked in their community and they would submit the report and 
it would get filed away and nothing would happen.
    Mrs. Wagner. By not having a rule in place, would you say 
that HUD was opposed to efforts to further the purposes of the 
Fair Housing Act, or that HUD was opposed to the Fair Housing 
Act itself?
    Mr. Furth. No, I don't think so. The Affirmatively 
Furthering language is tricky. It says that you are supposed to 
do things affirmatively, go out of your way to further fair 
housing, and exactly how you go out of your way to do that is a 
judgment call and I am not calling into question 50 years of 
HUD directors.
    Mrs. Wagner. Thank you.
    And Ms. Goldberg, I think I have a little bit of time left 
and you may have wanted to finish discussing some of the tools 
and resources that are necessary in advancing technology and 
enforcing the law as written, please.
    Ms. Goldberg. Thank you. I appreciate that. Really two 
things, one is that I think this is an issue that cuts across 
more of the Federal Government than just HUD and it is a place 
where an interagency effort would be very helpful. It is not 
just housing ads but also credit and employment ads that are at 
play in our Facebook case, for example. And so, I think a 
broader set of eyes would be helpful.
    I would also just say very quickly that I think that 
focusing on zoning alone in the context of Affirmatively 
Furthering Fair Housing misses a big part of the puzzle. It may 
be a very useful piece, but it misses a big part.
    Mrs. Wagner. Thank you, Ms. Goldberg.
    My time has expired. I yield back.
    Chairwoman Waters. Thank you.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you very much, Chairwoman Waters.
    Ms. Hill, let me start with you. In 1968, 51 years ago, the 
Fair Housing Act was passed, and yet here we are with still 
this piercing discrimination. What would you say if you had to 
name one or two or three things, why is that?
    I mean, 51 years is a long time, and in those 51 years a 
ton of resources and money have been put into it, yet this 
thing is still so alive, this racial discrimination, sexual 
orientation discrimination. What is going on? What could you 
say to us that would really put our finger on this problem?
    Ms. Hill. Thank you. I certainly appreciate the question. 
And I would say that a big part of why we have not made maybe 
as much progress in this area as we would have liked is that 
prior to the 2015 Affirmatively Furthering Fair Housing Rule, 
much of the focus in the fair housing conversation was on 
ending private acts of discrimination.
    And we really as a country hadn't gotten to dealing with 
the history of racist housing policy in this country. We hadn't 
gotten to addressing the history of segregation and really 
working to affirmatively further fair housing by creating and 
opening the door for open and integrated communities.
    I will say that we have spent some time this morning 
talking about what Affirmatively Furthering Fair Housing means, 
and luckily, we don't have to guess as to how that can happen. 
We all know that former Vice President Walter Mondale is still 
with us, and he is one of the original sponsors of the Fair 
Housing Act and has spoken publicly and been very clear about 
what that Affirmatively Furthering Fair Housing language meant 
back in 1968.
    And so, we really as a country have to focus on working to 
end the legacy of segregation.
    Mr. Scott. So, let me ask you this. We have in place what 
is called the Housing Choice Vouchers Program. Tell me, is that 
effective? How does that work?
    Ms. Hill. Well, I can certainly talk about the way that the 
Housing Choice Voucher Program has played out in New Orleans 
post-Hurricane Katrina, for example. The promise of the program 
is that people will take these vouchers and be able to find 
housing in the private market that works best for them and 
their families.
    We know that many public housing authorities across the 
country shifted to this model of more vouchers and less public 
housing in order to de-concentrate poverty. Unfortunately, in 
communities across the country and in New Orleans, we have 
really just under the voucher system further concentrated 
poverty, and in New Orleans, voucher holders have been moved 
across the Mississippi River and canals following Hurricane 
Katrina and are re-segregated in communities of high poverty.
    Mr. Scott. Let me ask you this, can these Fair Housing 
Choice vouchers be used to help pay the rent?
    Ms. Hill. Well, yes. And I think there are a few ways to do 
that. We know that we haven't quite gotten to the point where 
the vouchers are meeting the goal of providing free choice in 
the private market in terms of housing.
    In New Orleans, our housing authority has been working to 
roll out a pilot program where the voucher payment standard is 
adjusted to meet the cost of living in specific neighborhoods.
    Mr. Scott. I want to make sure I get the right answer here. 
So, these vouchers can be used to help pay the rent?
    Ms. Hill. Well, depending on the neighborhood. And so, it 
is important, I think, from an on-the-ground perspective for 
housing authorities to have the flexibility to be able to set 
the payment standard depending on the actual neighborhood.
    Mr. Scott. Okay. Thank you.
    Ms. Goldberg, you had an interesting comment about, you 
called it the disparate impact rule. Could you amplify that a 
bit in terms of its impact on this issue?
    Ms. Goldberg. In terms of its impact on housing choice 
vouchers in particular?
    Mr. Scott. No.
    Ms. Goldberg. Or on fair housing in general?
    Mr. Scott. Exactly. You made a very salient point. I 
remember part of it. But I did remember what you called it, 
disparate impact rule.
    Ms. Goldberg. Yes.
    Mr. Scott. Thank you.
    Ms. Goldberg. It is a critical tool that has been just 
fundamental to enforcing the Fair Housing Act, because not all 
acts of discrimination are blatant and in-your-face. Many acts 
of discrimination, whether or not they are intentional, are 
carried out through policies and practices that look neutral, 
like the situation that Ms. Hill described of the apartment 
complex that would evict somebody if the police were called to 
their unit.
    That doesn't sound like it is going to discriminate. But in 
fact, because of who is likely to be the victim of domestic 
violence, it does have a discriminatory impact, and this rule 
helps us ferret out and eliminate those kinds of policies.
    Mr. Scott. Thank you very much.
    Chairwoman Waters. The gentleman from Florida, Mr. Posey, 
is recognized for 5 minutes.
    Mr. Posey. Thank you very much, Madam Chairwoman, for 
holding this hearing.
    At our recent hearing on Homelessness and Housing 
Affordability, I pointed out that Secretary Carson has stated 
that local zoning and building restrictions were among the most 
important contributors to homelessness and to unaffordable 
housing.
    When we marked up the Homeless Act, I offered an amendment 
to provide authority for HUD to use incentives to encourage 
local communities to reduce zoning measures and other land use 
practices that serve to restrict the supply of the affordable 
housing in this country, and it passed with bipartisan support 
much to, I think, everyone's surprise.
    Today, three witnesses mentioned exclusionary zoning 
practices as an obstacle to fair housing and access for 
protected classes. One of the witnesses found--his testimony on 
this obstacle recommends strong incentives for eliminating such 
practices and recommends we look to the market outcomes as 
metrics to measure the success of our efforts along these 
lines.
    I believe that we know just as reducing zoning restrictions 
is a path to affordable housing, it is also one of the best 
practices to ensure fair housing.
    Mr. Furth, in your testimony, you say rather than relying 
on local policymakers with vague and unenforceable commitments 
to integrate, HUD should tie the disbursement of CDBG grants to 
clear requirements for already enacted zoning de-regulation 
reforms to the entitlement process that reduce the cost of 
building new housing. HUD should set clearly defined metrics 
which cities should begin permitting more housing if they want 
to continue receiving grants.
    Can you please describe some of those metrics and how they 
tie into the market outcomes?
    Mr. Furth. Yes. So, market outcomes are essentially when we 
look at the housing market as it is, what do we see? We see 
rent levels. We see how rent is changing.
    We see whether building permits are being issued and we 
could see patterns of segregation and other demographics. So, 
those are the outcomes. Those take time to develop. If you 
change your policy today, you are not going to see rent or 
segregation disappear in one month.
    So, we should look for the long term, are these policies 
having an effect on market outcomes? And then when a community, 
say a Cupertino, California, says, ``We have been very 
exclusionary but we want to keep getting the CDBG money, so we 
are going to change our policy,'' we say, ``Alright, in terms 
of the outcomes, you don't look great. Your rent is extremely 
high and a moderate-income person wishing to live here has 
extremely few options. But, okay, you are going to legalize 
accessory dwelling units. You are going to expand the land in 
which multifamily housing can be built. You are going to get 
rid of parking minimums that drive up the cost of constructing 
housing.''
    If they do one of those policies, we say, ``Alright, we 
will let you in for now and then we will reevaluate after some 
years and see if the outcomes match where we hope this policy 
would get you.'' And then at least we are creating--I don't 
think it is a very powerful incentive. I don't think we are 
taking away local self-government if we enact something like 
this.
    But we are at least saying if a community is exclusionary 
and unwilling to try to change, then HUD should wash its hands 
and say we are not subsidizing that.
    Mr. Posey. I concur. So often in this country we measure 
success by how much money we pour into something, not how 
effectively we get results, and that is definitely a problem. 
And I appreciate your comments about Dr. Carson looking into 
the land planning as an attempt, actually, the first attempt in 
his job to do that. And we know that it makes no sense for a 
homeless shelter to require two parking places per resident, to 
have one bathroom for every resident.
    We talked in committee a little bit about how Mother Teresa 
had a homeless center she was trying to open in New York. And 
they said well, you can't do it. There are not enough 
bathrooms, somebody may have to wait in line. So, they continue 
to use the street and sleep on the street, and that was just a 
big deficiency of government.
    So, you proposed that HUD tie the disbursement of community 
block grants to a local community meeting clear requirements 
for re-regulating zoning or reforms to the entitlement process 
that reduce the cost of building new housings like we just 
talked about.
    Does the use of CDBG grants reach enough communities to 
broadly and consistently provide incentives or do we need to 
consider other incentives in addition to those?
    Mr. Furth. That is a great question. And I think one of the 
best critiques of our proposal is that a lot of very 
exclusionary communities don't get CDBG. So there are not that 
many Federal levers right now that are useful and we could 
certainly consider creating levers, but I would also say fix 
what you are doing wrong before you create new money pools.
    Mr. Posey. Okay. I didn't have time to ask Ms. Hill a 
question, but I appreciate your testimony.
    Ms. Hill. Thank you.
    Chairwoman Waters. Thank you very much. The gentleman from 
Missouri, Mr. Clay, who is also the Chair of our Subcommittee 
on Housing, Community Development, and Insurance, is recognized 
for 5 minutes.
    Mr. Clay. Thank you, Madam Chairwoman, and let me thank the 
witnesses for your testimony. The National Community 
Reinvestment Coalition released a report on March 18th that 
identified more than 1,000 neighborhoods in 935 cities and 
towns where gentrification occurred between 2000 and 2013.
    In 230 of those neighborhoods, rapidly rising rents, 
property values, and taxes forced more than 135,000 residents 
who are often black or Hispanic to move away. Right here in 
Washington, D.C., 20,000 black residents were displaced, and in 
Portland, Oregon, 13 percent of the black community was 
displaced.
    While the study shows the concentration of wealth and the 
displacement of black and brown people, the study also found 
that wealth-building investments are increasingly concentrated 
in the larger cities, while other regions of the country like 
rural areas and tribal areas languish.
    Ms. Goldberg and Ms. Hill, is gentrification of fair 
housing an issue?
    Ms. Goldberg. I think gentrification can be a fair housing 
issue, certainly, if what it entails is the displacement of 
people who have been living in a community who are members of 
protected classes and being displaced by others.
    What we see I think in some cases is people of color living 
in a community for many years, and whether market forces or 
public investment or some combination spurs investment, and 
makes the neighborhood more attractive, other forces as well, 
housing prices go up, and the people who have been living there 
have been forced out.
    Where that has a racial impact or an impact based on 
national origin or any other protected class, that can be a 
fair housing issue.
    Mr. Clay. Let me ask Ms. Hill, what tools exist at the 
Federal level that can help local jurisdictions think through 
these equity issues so that they can begin to address them?
    Ms. Hill. I do just want to quickly say that in New 
Orleans, we are seeing climate gentrification that has been 
fueled by a flight to higher ground. And we know that white 
residents have been far more likely to have the resources to 
buy land in high-ground areas following Hurricane Katrina.
    African-Americans, who before the storm had been living in 
these high-ground neighborhoods bordering the Mississippi 
River, have now been easily displaced by those increasing 
rents. And so, I think it is important to at the Federal level 
have some oversight that ensures that local communities are not 
spending Federal disaster dollars in a way that will fuel 
gentrification and displacement or in a way that perpetuates 
segregation.
    Mr. Clay. Thank you for that response. And Ms. Olsen, has 
Zillow done research on this issue directly or with relation to 
market trends broadly that can shed light on this topic?
    Ms. Olsen. Yes. I think in looking at gentrification and 
where the market pressure is, currently, for example, if I 
looked at a major metropolitan area and I wanted to understand 
where home values have grown the most in the past, it was 
generally close to the job centers, because you have this 
greater concentration of people flowing into an area.
    It was hard to add housing into those areas because of just 
all sorts of things, so land use restrictions and kind of 
different barriers there that cause home values and rents near 
job centers to increase and we find generally lower-income 
households and often communities of color or individuals of 
color are then pushed further and further out.
    So then commutes increase, generally other amenities in 
that space from my earlier testimony kind of highlights there 
is disparate access there. So for sure, this is kind of a 
common dynamic and it comes down to many factors that influence 
that development.
    Mr. Clay. Thank you for that. And Ms. Johnson, are there 
any particular impacts gentrification with displacement is 
having on the LGBTQ community?
    Ms. Johnson. Thank you for your question. The reality is 
that LGBTQ people, especially queer women, transgender people, 
and LGBTQ people of color are more likely to live in poverty 
and are more likely to be incarcerated.
    So for example, up to 40 percent of women in incarceration 
identify as LGBTQ. So when we are looking at gaps, and we are 
looking at gentrification, when people who are reentering 
society after imprisonment can't find stable housing, they are 
forced out of the community. And so that is just one example of 
where those intersections come together and affect the LGBTQ 
community.
    Mr. Clay. Thank you. And I yield back.
    Chairwoman Waters. The gentleman from Texas, Mr. Williams, 
is recognized for 5 minutes.
    Mr. Williams. Thank you, Madam Chairwoman. I thank all of 
you for being here today. Secretary Carson asked for comments 
to change the Obama Administration's Affirmatively Furthering 
Fair Housing regulation.
    This was not an arbitrary decision. President Obama's own 
Council of Economic Advisors had doubts that the way the 
regulation was written could effectively combat discrimination 
in the housing market.
    So, Dr. Furth, can you explain the shortcomings of the 
previous Administration's Affirmatively Furthering Fair Housing 
regulation, and in addition, was there a consensus when this 
rule was introduced back in 2015 that this would end 
discrimination?
    Mr. Furth. Thank you so much. So in my view, it was a well-
intentioned rule and it had two primary shortcomings.
    The first is that it was very costly to administer, 
particularly for small communities. So if you don't have a 
dedicated planning staff, you are going to be looking at paying 
a consultant $50,000 to complete an assessment of fair housing.
    And if you are the type of community that is inclusive and 
isn't putting up barriers to housing, that seems like punishing 
someone just for showing up and wanting to participate in HUD's 
program, and I don't think it makes sense to kind of push these 
communities through a process which might be helpful to some, 
but is costly for virtually everyone and it turned out to be 
very costly for HUD's staff.
    They did it for a year and a half and the career staff 
said, ``We are exhausted, we can't keep up the pace of this 
with running through all of our communities.'' So that was the 
first shortcoming.
    The second was, despite the good intentions and the ample 
amount of work by many parties that went into it, it didn't 
change policy. So, it shined some light on problems and it was 
certainly much better than the analysis of impediments as a 
research method. And as a researcher, I appreciate people 
working hard to understand problems and documenting things 
really carefully, and it is great if HUD wants to make 
information available to communities that they don't have the 
resources to study this data themselves.
    But if you are going to do all that work, there should be 
some change. So if you look in the mirror and you walk away and 
don't change anything, that is a fundamental flaw. And so I 
think that the rule can be improved without abandoning it or 
giving up any idea that HUD can interact with municipalities. 
Thank you.
    Mr. Williams. Thank you. The economy is currently firing on 
all cylinders, I would say, and there are more job openings 
than people to fill them. Wage growth came in at 3.2 percent 
last year, which is the highest number in over a decade, and 
unemployment is at 3.8 percent.
    So capitalism really is an amazing thing. Dr. Olsen, would 
you agree with me? Are you a capitalist?
    Ms. Olsen. Well, I am an economist. Like many in my 
profession, I believe that perfect free markets are a gorgeous, 
beautiful thing. But also, as an economist I recognize that 
there are common market failures such as information 
asymmetries, positive and negative externalities, and 
concentrated market power. If these are operating in a market 
to a strong degree then the market will either over- or under-
produce.
    Mr. Williams. Okay. Let me ask you a question. In your 
testimony, there is a graph on homeownership between different 
races of individuals.
    Ms. Olsen. Yes.
    Mr. Williams. What do you believe is the biggest 
contributing factor for all of these disparities even though, 
as Federal Reserve Chairman Jay Powell stated in front of this 
committee in February, the economy is in a very healthy place?
    Ms. Olsen. Well, that is I think one of the upsetting parts 
about this and why affirmatively was a part of the wording here 
is that it has roots in historical policies that come back to 
redlining.
    If you can imagine how homeownership kind of reinforces 
itself over time, the biggest barrier to homeownership is that 
down payment, in order to make that down payment, people often 
turn to their communities, their families and friends for a 
loan or a gift.
    So for example, currently, 51 percent of first-time home 
buyers need that kind of assistance from their communities. 
Back then, it was probably similar. If you didn't get that 
resource over time, you can't make homeownership work. So if I 
start from a situation where we had redline areas, communities 
of color that were barred from access to homeownership, that 
would have a chain reaction that flowed all the way down to 
today that would continue that barrier.
    Mr. Williams. Okay. I am a capitalist who knows that free 
markets work. So Dr. Furth, before I continue this question, 
are you a capitalist?
    Mr. Furth. Sure.
    Mr. Williams. As a small business owner, I have seen the 
effects of the government policies, the current issue for 
example, if interest rates go up, it could keep somebody from 
buying, $50 a month could change their ability to buy a car.
    So can you give us quickly some specific examples of 
policies that are preventing the free market from dealing with 
affordable housing?
    Mr. Furth. A great one is parking minimums in big cities.
    Mr. Williams. Thank you. I yield back.
    Chairwoman Waters. Thank you. The gentleman from Texas, Mr. 
Green, who is also the Chair of our Subcommittee on Oversight 
and Investigations, is recognized for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman. I especially thank 
you for the opportunity for us to move from talking points with 
reference to invidious discrimination to action items.
    We have several pieces of legislation that will afford us 
the opportunity to do so. I am going to call to your attention 
H.R. 149, the Housing Fairness Act. Very simply put, it seeks 
to codify and standardize two programs into one: the Fair 
Housing Initiative Program; and the Fair Housing Assistance 
Program.
    In so doing, it will legitimize further to a greater extent 
the process of testing, a process that is utilized to acquire 
empirical evidence to support discrimination contentions, we 
can now with this evidence have facts that we can utilize to go 
forward.
    So Ms. Goldberg, let me start with you, if I may. Could you 
kindly tell me where the testing can be beneficial if we do it 
on a standardized nationwide basing or the testers themselves 
have been trained to do so with the greater degree of 
expertise?
    Ms. Goldberg. Absolutely. Testing is a critical tool for 
fair housing enforcement. And I am sure Ms. Hill could speak to 
this as well. It has been used by our organization and many 
other organizations around the country.
    It has been upheld by the Supreme Court as a valid and 
necessary tool for fair housing enforcement because it lets you 
run essentially a controlled experiment. You send out two 
people who look the same in all relevant characteristics but 
one is, for example, African-American, one is white, one is a 
woman, one is a man, one is a family with kids, one without 
kids.
    And you give them comparable characteristics, a comparable 
profile so that they appear to be equally qualified. In fact, 
usually the tester who is a member of a protected class is a 
little bit better qualified than the other. And you see what 
happens to them. And if they are treated differently because 
they are comparable in all relevant criteria, you can determine 
whether the difference in treatment is based on that protected 
class characteristic. No other tool that we have is so valuable 
for figuring out whether discrimination is occurring.
    Mr. Green. Would someone else care to give a comment?
    Ms. Hill. I would, if I may.
    Mr. Green. Ms. Hill, thank you.
    Ms. Hill. Thank you, I very much appreciate it. What I will 
mention is that testing is oftentimes the only way to discover 
whether discrimination is happening and whether people are 
being kept out of a certain community.
    We were able to bring litigation because we had analyzed 
some census data with regard to a community in the suburbs of 
New Orleans, and we found that the area surrounding one 
particular neighborhood was very racially mixed, but on the 
census data map this certain community was very white, and when 
we zeroed in, we found that it was a large multi-block 
apartment complex and there were no people of color living 
there.
    We sent some testers out and all of the black testers were 
denied. Now the property manager was very nice about it, she 
didn't say they couldn't have access to that space because they 
were black, but that is what was happening.
    When we got into litigation, the property manager who had 
been managing that space for 32 years admitted under oath that 
in 32 years she had never rented to an African-American 
resident. And so we know that for decades, black people were 
excluded from this community where many of them had hoped to 
live. Without testing, we would not have been able to uncover 
that discrimination, because nobody came in and made a 
complaint to us about that particular place.
    Mr. Green. Moving on to some statistical information--the 
staff has done a great job, and I want to compliment the 
staff--the indication is that 71 percent of the reported 
housing discrimination complaints have been handled by the Fair 
Housing Initiative Program, and this was in 2017.
    And that the fair Housing Assistance Program handled 23 
percent, that HUD handled 4.5 percent, and the DOJ 0.1 percent. 
These numbers seemed to indicate that the Fair Housing 
Initiative Program, which is an NGO-based program, and the 
Housing Assistance Program, these two entities seemed to be 
handling the lion's share of these complaints. Ms. Goldberg, 
has that been your experience?
    Ms. Goldberg. Yes. I think that pattern has held true over 
quite a long time.
    Mr. Green. And finally, let me just close with a word--I 
hear many people rail and complain about invidious 
discrimination, perhaps not in the terminology that I have just 
utilized, but they do.
    They complain, but when given the opportunity to do 
something about it, they don't seem to have the energy to do 
so. I think that this is a great opportunity for us to go from 
talking points about invidious discrimination to action items. 
Thank you Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you. The gentleman from Arkansas, 
Mr. Hill, is now recognized for 5 minutes.
    Mr. Hill of Arkansas. I thank the Chair, and appreciate 
this good hearing today and I appreciate the witnesses for 
being here. I have been involved around the housing policy area 
for a long, long time. I was a young staffer back in the 1980s 
on the Senate Housing Subcommittee, so I certainly am familiar 
with the legacy of some of these challenges that we talk about 
today.
    And Ms. Hill, thank you for your work in South Louisiana. I 
was a volunteer with Rotary International and we rebuilt about 
60 houses in Lecompte after Katrina using Bush-Clinton Katrina 
money, and that is why I am so supportive of Al Green and Anne 
Wagner's efforts at CDBG-DF reform. I know it is controversial 
in Congress but we saw families be given the money to raze 
their homes in Lecompte, which is on the north side of Lake 
Pontchartrain, in an unincorporated area, and the money didn't 
go into razing their homes. So they will just be back in the 
same situation in a future high-water event along Lake 
Pontchartrain, and that is why the after-action auditing there 
shows almost $800 million was allocated through CDBG-DF but was 
not spent properly for home razing. That is why we really need 
reforms in that area to make sure that money gets to the 
homeowners, and is spent by the homeowners for the purpose that 
it was intended so that they have a much safer, dryer place in 
the future. So, thanks for your work.
    I was intrigued listening to the conversation back and 
forth about HUD's discoveries at Facebook and we are in a new 
era of discrimination when we go digital and go social media. 
So that was interesting to me. The Chair and the Ranking Member 
have been talking about forming a taskforce on on financial 
technology, Fintech, and of course, Zillow is on the cutting 
edge of Fintech as well as Facebook.
    So I am very interested in not only how we can cut 
compliance costs for market participants, improve access to the 
unbanked and things of that nature through Fintech, but also 
sort out at a lower cost discrimination through the use of big 
data.
    So to help me learn a little bit more about this, who wants 
to answer the question, how did HUD learn about this Facebook 
ad presentation issue? Who is the best one, Ms. Goldberg, 
should you tackle that?
    Ms. Goldberg. I think I could answer that. I believe HUD 
learned about it the same way we did, which was through some 
amazing investigative reporting done by ProPublica.
    Mr. Hill of Arkansas. Okay. Good. And once that was 
identified, what was the methodology then for tracking that and 
discovering it, and is that open source type data that could be 
used by financial institutions, for example, or tell me how 
then HUD went on to the next level to build the case if you 
will?
    Ms. Goldberg. I can't speak to what HUD has done, it has 
issued a charge which tells you what it found but I am not sure 
what its methodology was. I can tell you what we did if that 
would be of interest, which is that we created for the purposes 
of this test, what is the word that I want, a management 
company.
    And we said to Facebook that we had apartments we wanted to 
rent, we went on their site, to their ad portal and looked at 
the characteristics that they let us use to either include 
people who would see that ad or to exclude people who would not 
see that ad. We were able to get ads approved by Facebook that 
included the use either to exclude people and primarily 
included the use of protected categories under the Fair Housing 
Act.
    And so, it was a form of testing in a way. We were able to 
see for ourselves by posing as a potential landlord that the 
tools that Facebook made available enabled us to discriminate.
    Mr. Hill of Arkansas. Dr. Olsen, do you want to add to that 
from Zillow's point of view of looking at big data, do you have 
any thoughts on that? On how best for HUD, for example, to root 
out using social media or big data?
    Ms. Olsen. You know, I don't think we have. As an 
economist, I really don't have a lot of insight into what HUD 
could do in order to explore. I can say that the purpose of the 
finding was to solve for information asymmetries by putting all 
available listings online for everyone to search and sort 
through. And that kind of finding is important to this kind of 
idea.
    Mr. Hill of Arkansas. Thank you, Madam Chairwoman. I yield 
back.
    Chairwoman Waters. The gentleman from Illinois, Mr. Foster, 
is recognized for 5 minutes.
    Mr. Foster. Thank you, Madam Chairwoman, and thank you for 
this hearing. You know, I represent the second, third, and 
fourth largest cities in Illinois: Joliet, Aurora, and 
Naperville.
    And rolling through here on the screens are these redlining 
pictures, and I remember trembling with rage when I saw the 
redlining pictures of Joliet and Aurora from the 1930s, and 
then driving through those neighborhoods and seeing how their 
futures have been determined by these bigoted, racist policies.
    I also represent Naperville, which until well into the 20th 
Century was what was called the ``sundown town,'' so they 
didn't have any redlining issues there. But it has gotten 
better. It has really gotten better in Joliet, in Naperville, 
and in Aurora. And a part of that, a big part of that were the 
Federal policies that leaned heavily against this.
    And I was reading through the complaint against Facebook, 
which sort of brought that same level of rage. I don't think 
this was intentional, but it just underlines the danger in the 
power that has been given to these companies, that although 
Facebook themselves probably didn't deliberately do this, I am 
convinced there are many landlords out there that would take 
advantage of the ability to do that.
    And it underlines the fact that Congress hasn't been paying 
enough attention to the power of tech on this. But then on the 
other side is, what could you do to actually fix this and use 
the power of tech for a positive way? I guess, Ms. Goldberg or 
Ms. Hill, I can't remember, was talking about doing electronic 
testing, essentially simulating landlords.
    I mean, you could potentially have access to when someone 
puts out an ad and say, okay, it is fine that you set this 
criteria but this criteria will discriminate against X, Y, and 
Z, and let the person thinking about putting that ad out there 
get immediate feedback from Facebook that this is a 
discriminatory set of criteria that you have.
    Is Facebook, to your knowledge, talking about that sort of 
immediate feedback so that even say an individual landlord will 
not inadvertently do this?
    Ms. Goldberg. I can speak to that. What Facebook has done 
is committed to taking off of its platform, creating a new 
portal for people who want to advertise services related to 
housing, employment, and credit so that they will create ads 
through a different mechanism than other people who are 
creating ads for other kinds of goods and services, and that 
employment and credit portal will not offer the options of any 
categories that you can either include or exclude that 
reflect--
    Mr. Foster. But the number of proxies that you can generate 
is--
    Ms. Goldberg. It is a lot. And we will be working with them 
and monitoring what they do over the next 3 years to ensure 
that all of the categories that might have a discriminatory 
effect are removed.
    I would say two things if I could in response to your 
question further. One is that in the context of Facebook, the 
problem is not just in the ad creation to begin with, that was 
clear and that is what some of the main provisions of our 
settlement agreements speak to. But a problem that neither we 
nor Facebook actually knows how to figure out, but will be 
looking at over the next 3 years, is the way that its algorithm 
delivers ads to people even when those ads don't have any 
discriminatory targeting based on the other information that 
Facebook has about people, and who it thinks will be most 
likely to respond to an ad, and other ad campaigns that may be 
running which reflect the historic discrimination in our 
society.
    So it is a real problem, and we are hopeful that by working 
together we will be able to get to the bottom of it. I would 
just say if I could that I think the Facebook problem is a big 
one and I hope that we are on a good path to tackling that, but 
it is not the only one and the way we see algorithms and big 
data work for example in the mortgage lending space is a little 
bit different. And so it is going to take a little bit 
different kind of tools to address that.
    Mr. Foster. And then on the other side, you can imagine the 
situation, we spend a whole lot of money trying to subsidize 
socioeconomic integration in our communities. I mean, it is a 
really good thing, it is a better outcome for the whole 
community.
    And so have people ever thought we have all this big data? 
So that for example just paying, say Facebook, if their ad 
results in a placement of a family in a neighborhood which 
increases socioeconomic integration, that somehow, they get 
rewarded for that monetarily. Is that sort of idea ever been 
talked about, to just use these big datasets for good? If you 
could answer that for the record, I would appreciate it. I 
yield back.
    Chairwoman Waters. The gentleman from Tennessee, Mr. 
Kustoff, is recognized for 5 minutes.
    Mr. Kustoff. Thank you, Madam Chairwoman, and thank you for 
convening the hearing today. I also want to thank the witnesses 
for appearing this morning.
    Dr. Furth, in your testimony, especially in your written 
testimony, you go into some discussion about Community 
Development Block Grants. We all know the Community Development 
Block Grant program is one of the oldest programs under HUD. It 
is also frankly probably one of the most popular with our local 
mayors and local elected officials.
    In your written testimony, you discussed withholding some 
of the CDBG funding to encourage, if you will, local 
communities to better incentivize fair and equal housing 
access. Can you explain, if you could, why withholding these 
CDBG funds from communities would, in fact, better incentivize 
better housing and land use policies?
    Mr. Furth. Certainly, thank you. So CDBG money is not a big 
part of any community's budget unless they are in the disaster 
program. But it is a very popular part because every mayor kind 
of gets this little pool of money. It is often like a million 
bucks to do a project that they don't have local budget for, so 
this isn't usually used to just pay for standard things, it is 
used to pay for kind of really fun one-offs. Unfortunately, it 
is frequently used to directly give to local businesses, which 
seems like a really, really poor use of Federal money to me.
    And so, mayors love it, right? It gives them a ribbon 
cutting. It gives something that they couldn't have gotten 
through the local taxing authority, that their voters wouldn't 
necessarily have approved.
    So, that is a great lever. It doesn't hurt renters, right? 
So if we said, okay, if you don't comply with some inclusion, 
we are going to withhold your home funds. Well, the home funds 
actually support low-income renters. So the pain there is felt 
by the people we are trying to help.
    CDBG hurts mayors if you take that away. That is the--I 
joke that it is a French abbreviation for mayor's ribbon 
cutting slush fund. And I think that is how it gets used and 
that is why it is a good lever, although it doesn't hit every 
community.
    Mr. Kustoff. If I could follow up on CDBG, and I didn't 
state this to the witnesses before, but in my district, I 
represent West Tennessee, so I have part of Memphis, part of 
the City of Memphis, the City of Jackson, Dyersburg, and rural 
parts of West Tennessee.
    Memphis is a community that uses CDBG grants quite a bit. 
As it relates to the formula, and I know I am getting a little 
bit in the weeds, but the formula B if I could, which in part 
is based on--as I understand it, 1940s housing data or 1940s 
data is weighted at around 50 percent appropriation.
    So some older suburbs benefit from the pre-1940 or the 1940 
formula even though they are kind of low-need communities. So 
my bottom line question is, should HUD look at redoing the 
formula, reformulating it in order to better distribute funds?
    Mr. Furth. Yes. Well, HUD can't. But I would urge this 
committee to revisit the formulas. They were written in the 
1970s when an old house was a bad house, right? So, the 
assumption in the formula was that if you lived in a 50-year-
old house, it must be falling apart.
    And now we know if we go to the most exclusive addresses 
and zip codes, the houses are often very old and very, very 
nice. And that is no longer a good proxy for need. So, I think 
we could very easily rewrite the formula to much better target 
Congress' original intent and what this Congress would also 
intend for using that program. I would applaud that.
    Mr. Kustoff. And you think it is something that can be done 
and could be done during this Congress?
    Mr. Furth. Well, every other Congress since then has not 
wanted to touch it because there is a fixed pot of money and if 
a little less goes to Brookline, Massachusetts, instead going 
to Memphis or Allentown, then somebody squeals and the people 
who squeal have Representatives in this body and redistributing 
money across cities is going to hurt somebody.
    But if we can put aside that parochialism or even to say 
within your district that there are communities that are really 
well-resourced and there are communities that aren't. And right 
now, even within your district they are probably funneling that 
money poorly.
    Mr. Kustoff. Thank you, Dr. Furth.
    And I yield back the balance of my time. Thank you.
    Chairwoman Waters. Thank you.
    The gentleman from Washington, Mr. Heck, is recognized for 
5 minutes.
    Mr. Heck. Thank you, Madam Chairwoman, indeed, thank you 
for holding a hearing on a matter is as important as this.
    Dr. Olsen, welcome to Washington, D.C., again, I think as 
an economist I have some questions I would like to ask you, 
specifically following up on Mr. Clay's questions regarding 
gentrification, which I thought were fascinating and 
provocative.
    And Ms. Hill, thank you so much for reminding me that 
gentrification can occur for reasons other than just lack of 
supply, i.e., flight to higher ground. That was a paradigm-
shifting reminder for me and I appreciate it very much.
    But Dr. Olsen, is it not only obvious that discrimination 
occurs everywhere, but with respect to gentrification, is it 
also true that it can often be especially propelled by supply 
considerations?
    Ms. Olsen. Yes. Yes, definitely, of course. When we think 
about displacement, what is happening is that demand is 
overwhelming supply and the current way that we do not up-zone.
    Mr. Heck. Do not up zone. We have had that conversation.
    Ms. Olsen. We have had that conversation before, yes. It 
definitely exacerbates this problem and has barriers to kind of 
successful or affluent communities.
    Mr. Heck. So, in a community like Seattle, for example?
    Ms. Olsen. Yes.
    Mr. Heck. Where in particular, high-tech companies like 
Google and Facebook and Zillow and, of course, Amazon, bring in 
not just thousands but tens of thousands of people, it creates 
a supply problem on the housing side leading to gentrification.
    Ms. Olsen. Yes.
    Mr. Heck. And gentrification has multiple and insidious 
effects on people of color, does it not? They are pushed out of 
homes that they can no longer afford, leaving then to confront 
secondarily, where am I going to live when I am confronted with 
additional discriminatory barriers? Is that a fair statement?
    Ms. Olsen. Something that I often say when I am talking to 
groups around the country about housing supply and land use is 
to say in one way or another, your community is going to 
change.
    If the housing stock does not evolve, if you do not allow 
it to evolve or become more dense, then the people who live 
there, the makeup of them, what they look like, the kind of 
jobs they have is going to become, that is what is going to 
change, right?
    You are going to have people with lower incomes moving out. 
If you allow the built environment to change, then it is more 
likely that the diversity within the set of people will change.
    Mr. Heck. There are two dimensions to this that I want to 
quickly introduce and get your reaction to.
    Ms. Olsen. Yes.
    Mr. Heck. As it relates to the gentrification or supply in 
general.
    Ms. Olsen. Sure.
    Mr. Heck. It seems to me that when demand exceeds supply, 
you basically have given additional power to landlords over 
tenants, that if they have a product that is in short supply 
you have, in fact, tilted a little bit of the power equation, 
which then represents yet another way in which people who are 
traditionally discriminated against have even less leverage as 
it were. Is that not just basic economic common sense?
    Ms. Olsen. Yes, I think a way to make that more tangible is 
to say in an environment where demand is overwhelming supply 
and I have an open listing, say five people show up at the 
exact same time, I get to choose which one.
    Mr. Heck. So finally, and this is the one that on some 
level bothers me the most, homeownership in this country has 
declined and is at its relative lowest level in quite some 
time. We know that people of color are discriminated against 
with respect to lending and with respect to purchasing.
    But given that homeownership, which still is aspired to by 
the overwhelming percent of Americans, is the single largest 
net worth-building asset to the average American, 
homeownership, then discrimination when it occurs as a 
consequence of all these factors has an especially long-term 
structural debilitating economic effect.
    Does it not, Dr. Olsen?
    Ms. Olsen. Yes. I think homeownership is one of the biggest 
ways that you have intergenerational transfers of wealth and 
then for yourself to also build wealth over time.
    Mr. Heck. And supply plays an important consideration in 
all that. Thank you.
    I yield back, Madam Chairwoman.
    Chairwoman Waters. Thank you.
    The gentleman from Kentucky, Mr. Barr, is recognized for 5 
minutes.
    Mr. Barr. Thank you, Madam Chairwoman, and thank you to the 
witnesses for your testimony today on the very important 
subject of fair housing. I want to talk a little bit about 
disparate impact.
    The Supreme Court's decision in inclusive communities held 
that, disparate impact liability must be limited so employers 
and other regulated entities are able to make the practical 
business choices and profit-related decisions that sustain a 
vibrant and dynamic free enterprise system.
    But the 2013 version of the HUD rule required defendants to 
prove that the practice at issue was necessary to achieve one 
or more substantial, legitimate, nondiscriminatory interests of 
the respondent or defendant.
    Dr. Furth, this question is for you. Did the 2013 version 
of the HUD regulation have the effect of discouraging these 
employers and regulated entities from making practical business 
decisions out of fear that they might result in a lawsuit, 
notwithstanding otherwise being perfectly legitimate and good 
faith decisions?
    Mr. Furth. I apologize, Congressman, I have no expertise in 
that area.
    Mr. Barr. Dr. Olsen, do you have a view on that?
    Ms. Olsen. I also don't think I can comment with my 
expertise.
    Mr. Barr. Do any of the other witnesses have an opinion 
about that?
    Ms. Hill. I can speak to it, not in the employment context, 
but as a fair housing advocate and a civil rights attorney who 
has litigated these cases. What I can say as someone who runs a 
fair housing advocacy group, is that we have used the disparate 
impact theory to positively benefit the residents of South 
Louisiana, most recently in the direct aftermath of Hurricane 
Katrina where we brought litigation against a local government, 
a community that passed a law that would require that 
homeowners who wanted to rent their homes in their community 
could only rent to people who were related to them by blood. At 
the time since the State approved that 93 percent of the 
homeowners in that parish were white, it would directly follow 
then that the majority of their blood relatives were white.
    And so, even though that law did not on its face exclude 
people of color, it had the effect of prohibiting people of 
color from renting in that community.
    Mr. Barr. So I want to maybe ask the question a little bit 
differently to get at the question that I am concerned about. 
The Supreme Court, in the Inclusive Communities case, what the 
Supreme Court held was that a disparate impact claim cannot be 
based solely upon a showing of statistical disparity.
    Given that the HUD rule on disparate impact does not 
conform--I am talking about the 2013 rule--with the Supreme 
Court decision in 2015, shouldn't we agree that a revised 
rulemaking is appropriate?
    Dr. Furth?
    Mr. Furth. I can't speak to your premise. But clearly, if 
the rule is ruled unconstitutional, then it must be revised.
    Mr. Barr. Right. And so, HUD has released a proposed 
revised rule that conforms to the Supreme Court Inclusive 
Communities decision, does anybody have a problem with that?
    Ms. Hill. Well, I would just say that I don't believe that 
the Inclusive Communities decision spoke to the 2013 HUD rule 
and I don't believe that there has been any court finding that 
the HUD 2013 rule is--
    Ms. Goldberg. Well, to the contrary, courts have found that 
there is no conflict between the 2013 rule and the ICP case 
decision. And based on that, there is no reason to go back and 
revisit this issue which is a rule that has been in effect or 
excuse me a doctrine that has been in place, a tool that has 
been available to us almost as long as the Fair Housing Act, 
has been upheld all the Federal Circuit Courts that have--
    Mr. Barr. Reclaiming my time, and I apologize for cutting 
you off because I know you are making a point, but in my 
remaining time, what I am concerned about is that the 2013 rule 
may be well-intentioned, but the concern I have is that it 
would actually have the unintended effect of reducing access 
for the very classes that the Fair Housing Act is trying to 
protect, because it is going to encourage housing providers to 
just simply withdraw for fear of litigation.
    And so, I think when we talk about an inadequate supply of 
housing and the negative impacts that has on vulnerable 
communities, we need to be very, very careful about HUD 
regulations that would create a litigious environment that 
would discourage the provision of housing.
    Ms. Goldberg. So, can I just say that the 2013 rule did not 
change the landscape in any significant way compared to what it 
had been for many decades before that, and we have not seen a 
withdrawal of landlords from the market in fear of litigation. 
So, I think that your concern is--
    Mr. Barr. My experience is different. I yield back.
    Chairwoman Waters. The gentleman from Florida, Mr. Lawson, 
is recognized for 5 minutes.
    Mr. Lawson. Thank you, Madam Chairwoman, and welcome to the 
committee, witnesses.
    Ms. Johnson, I was very interested in your presentation. I 
know it has been 50 years since the Fair Housing Act was 
implemented, a couple of days in 1968 after Martin Luther 
King's assassination.
    And I would like for you to elaborate a little bit more on 
access for the LGBTQ community of projects that are funded by 
HUD, because according to this information, there was a final 
rule in 2016 about access, and then it was alleviated in 2017.
    Could you express a little bit more from your presentation 
what kind of effect that this has had on the LGBTQ community?
    Ms. Johnson. Sure. Thank you so much for your question. I 
think what is so important to me, in the conversation about 
Facebook and the conversations that we have had is that this is 
about ending systemic discrimination.
    And what we are seeing, how LGBTQ people are impacted is 
that they are people of color. They are people living with 
disabilities. They are coming from and returning citizens from 
prison.
    And overwhelmingly, we are seeing this kind of 
discrimination impacting young people. Again, as I said in my 
presentation, 40 percent of young people living in homelessness 
are LGBTQ people.
    So there was a statement about the importance of owning a 
home and the discriminatory barriers to that. But there are 
discriminatory barriers to renting homes, and to getting into 
homeless shelters, so, there are multiple levels of 
discrimination before these young people or couples or families 
can even get to the point of owning a home.
    So, I think it is important that in addition to what has 
happened since 1968, we have seen gender added. We have seen 
familial status added. But we have more work to do.
    In addition to doing the testing around current protected 
statuses, we also need to be expanding who the protected 
classes are, or reaffirming who those protected classes are, 
which again around sexual orientation, around people returning 
from prison, around people who have housing vouchers.
    We have made a lot of advances but there, again, there is 
just, I think it is important for Congress to continue its work 
to recognize that discrimination is still present. We have to 
acknowledge it and we have to continue to do our due diligence 
or this affirming work to name it, to find it, and to prevent 
gaps in the law for creating, allowing for that kind of 
discrimination.
    Mr. Lawson. Okay. Thank you.
    Ms. Hill, how have credit scores discriminated against 
people who are trying to enter the housing market?
    Ms. Hill. Well, I think it is clear that there is a 
problem. There are gaps in access and the National Fair Housing 
Alliance has actually taken the lead on bringing this 
conversation to the forefront nationally.
    We know that people in communities of color are underbanked 
and oftentimes referred to the subprime lending market. And so, 
there are a variety of ways in which access to credit leads to 
discriminatory outcomes, the credit scoring system and the 
algorithms that are used as we talk more about this 
conversation around data, definitely does have some 
discriminatory impacts on communities of color.
    Mr. Lawson. Ms. Goldberg, I have a few more seconds. Can 
you comment on that too, please?
    Ms. Goldberg. Absolutely. One of the problems that we see 
is that the credit scoring systems that are used depend on the 
results of many, many decades' worth of segregated and 
discriminatory patterns. And so, the access that people of 
color in particular have had to mainstream credit from banks 
and savings and loans that look good on your credit record that 
boost your credit score has been limited.
    And instead, folks have been relegated to the fringe market 
with payday lenders and subprime lenders and title lenders, et 
cetera, who don't report positive payment history to the credit 
bureaus but do report if you fail to pay.
    And so your good payment history doesn't work for you, but 
your bad payment history, should that happen, works against 
you. And that is one of the things that has gotten baked into 
the system.
    Chairwoman Waters. The gentleman from Ohio, Mr. Stivers, is 
recognized for 5 minutes.
    Mr. Stivers. Thank you, Madam Chairwoman, for holding this 
important hearing, and I would like to thank the witnesses for 
being here. My first question is to Dr. Furth. I represent 
among other places Franklin County, Ohio, Columbus, Ohio, where 
we have a shortage of 50,000 affordable housing units at this 
point. And that shortage seems to be getting worse. Do you 
think any of these bills would help us create a supply that 
would fix that backlog?
    Mr. Furth. In my brief reading of the bills that were 
introduced ahead of this hearing, I saw lots of valuable and 
well-intentioned things, but I don't think any of them would 
help increase supply.
    Mr. Stivers. I actually agree, and I think that is our 
biggest problem, that and affordability.
    Dr. Olsen, I want to take off on some questions that the 
gentleman from Missouri and the gentleman from Washington asked 
about gentrification. And I am curious if maybe our passion and 
upset feelings on gentrification might be slightly misplaced.
    Let me just ask you a couple of questions. Does 
gentrification help renters or homeowners?
    Ms. Olsen. I think one of the reasons, and if I can--
    Mr. Stivers. No, can you just answer the question? I don't 
have a lot of time, ma'am. Does it help renters or homeowners? 
Do property values go up or down when you have gentrification.
    Ms. Olsen. I think you first have to define what you mean 
by the word, ``gentrification.''
    Mr. Stivers. Other people have described gentrification, do 
property values go up or down during gentrification? If you 
can't answer it, we can move on.
    Ms. Olsen. We can move on.
    Mr. Stivers. Okay. Thank you very much. And I do have one 
more question for you, Dr. Olsen. So, you testified that 
minority homeowners have more frustrations with their home 
searches. Can you describe what those frustrations are related 
to?
    Ms. Olsen. I can describe what the exact questions are that 
we ask, so such questions are full satisfaction with the home 
search process. We ask if finding the right agent is ``very 
difficult'' or ``difficult.''
    We know about the number of offers they submit in order to 
win a bid on a home during a forced sale process as well as the 
number of rent applications they need to submit. We also ask 
about perceptions of discrimination, so do you feel that you 
have been treated differently due to, and we ask questions 
about race, sexual orientation, Section 8 voucher holding, 
religion, veteran status, gender identity, and gender itself. 
In all of those questions, you can see a consistent pattern 
where people of color and other protective classes generally 
more frustrations in that part of the search process.
    Mr. Stivers. Do you think any of these bills would 
alleviate some of those frustrations and how so?
    Ms. Olsen. As an economist who studies housing markets 
broadly, I don't have a lot of good insight into the specifics 
of policy.
    Mr. Stivers. Okay. No problem.
    Ms. Johnson, you had brought up earlier the issue of 
homelessness, and I know a lot of folks in the LGBTQ community 
face homelessness. And one of the things that you may be 
surprised to know is that the Housing and Urban Development 
Department does not include anyone who is under age 18 in their 
definition of homelessness.
    Do you think if they would change that definition to 
include folks under 18, it would help people in the LGBTQ 
community?
    Ms. Johnson. Can you hear me?
    Mr. Stivers. I can now.
    Ms. Johnson. Can you hear me now? I think recognizing 
homelessness of all folks, in particular, again, yes, under 18, 
I think that is an important focus in the community and I also 
think it is important for us to really look at what is offered 
in these shelters, and again, what is offered in renting for 
these young people as well. I think it could potentially be 
helpful.
    Mr. Stivers. Thank you. And one last question. Dr. Furth, 
under the policy proposal to use CDBG grants to incentivize 
community behavior, what metric would you use to evaluate 
whether a community is exclusively exclusionary?
    Mr. Furth. Thank you. I don't think one metric is going to 
be sufficient. We have to look at a bunch of things. The level 
of rent is probably primary, and then within that, if you are a 
high-rent place, is rent growing even higher and are you 
issuing building permits? Those are key.
    Do you have a record of judgments against you in 
discriminatory legal actions is something that I would 
certainly include. So I think that to be careful--and I have 
run the numbers a few times on different things--you need to 
have a multiple element definition.
    Mr. Stivers. If you want to expand on that, if you could 
submit it for the record, if you want to include any of those 
elements, that would be very helpful to this committee, I 
believe. I yield back the balance of my time.
    Mr. Lynch [presiding]. The gentleman yields back.
    The gentlewoman from New York, Ms. Ocasio-Cortez, is 
recognized for 5 minutes.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman.
    I have some questions, particularly when we see how 
redlining functioned. It was in many ways and as we know now a 
very racially targeted policy. But it was kind of coded into an 
economic language and an economic policy.
    So it was racially targeted but it was economic in its 
implementation. And so, in having that result as you had 
mentioned, Dr. Olsen, that it created a situation where some 
communities were more accessible to investment than others.
    And that has had intergenerational consequences. So would 
you say that the practice of redlining and making some 
communities with different racial makeups more able to easily 
access capital and lending contribute to a racial wealth gap 
today?
    Ms. Olsen. Yes. I think if I understand, so let me break it 
apart, into two parts. So one, when they redline, they did look 
at kind of contextual element, this has a school, this has 
parks, but it was pretty explicit too.
    There are people of color and there are immigrants here. 
And so, it got a lower rating and is hazardous for lending. I 
think to your, maybe one of the ways that I can get at kind of 
looking at your questions is could you, for example, change 
some of the ways that you access credit or maybe you measure 
credit scores so that you can make this more balanced and 
provide more credit to people of color, that could lay, kind of 
not resolve because we have a long road ahead of us in order to 
fix these problems.
    So, for example, one of the barriers to having a good 
credit score, access to credit is that you regularly pay your 
rent on time, regularly pay utility bills, regularly pay the 
cell phone bill, those are not currently included and 
standardized, just the credit scores. Let us say you did, then 
you could balance it back.
    Ms. Ocasio-Cortez. Just to reclaim my time very quickly, 
would you say that government policy, particularly centered 
around redlining, has contributed to the racial wealth gap?
    Ms. Olsen. Oh, yes.
    Ms. Ocasio-Cortez. I have a question. So we now kind of 
have this problem where there is an enormous racial wealth gap 
as a consequence of discriminatory public policy. I am curious 
to see if there are other policies or other practices that 
whether intentionally or unintentionally are kind of this 
economically coded, yet discriminatory or compounding policy.
    In New York City, we have a really big issue with predatory 
equity. It is a practice whereby real estate speculators spend 
exorbitant sums to buy up affordable housing all over New York. 
The buildings that are bought become at risk of default and 
tens of thousands of families stand to lose their homes in 
addition to tens of thousands of affordable apartments.
    Ms. Goldberg, I have a quick question. We are seeing in my 
home district of Queens that landlords are using harassment 
tactics to push tenants of color, immigrants, and others out of 
rent-stabilized buildings using overcharges on keys, rewriting 
leases, illegally raising rents, refusing to make repairs, 
fraudulent major capital improvements, and even turning off the 
heat during winter. What is the Fair Housing Act's role in 
mitigating a problem happening on this scale?
    Ms. Goldberg. The Fair Housing Act may be one tool, I 
suspect other tools are also needed, but if what is happening 
is affecting people of color, families with kids, people with 
disabilities, members of protected classes disproportionately, 
then the disparate impact rule under the Fair Housing Act can 
be a tool to force the landlords to change their practices.
    Ms. Ocasio-Cortez. So we can use the disparate impact rule 
to highlight some of these practices? What about what we are 
seeing here is, I represent one of the densest immigrant 
communities in the country, and what we are also seeing is that 
landlords are leveraging a tenant's immigration status as a way 
to exploit money out of them. Sometimes, they will increase 
their security deposits and say, ``You need to give me another 
$300 or I am going to report you to ICE.'' What under the Fair 
Housing Act can we use to make sure that things like that don't 
happen?
    Ms. Goldberg. Ms. Hill might also weigh in on this, but I 
would suspect that you could show that that would be 
discrimination based on national origin, which is a protected 
class under the Fair Housing Act.
    Ms. Ocasio-Cortez. Thank you. Ms. Hill, do you have any--
    Ms. Hill. I would agree with that in the interest of time.
    Ms. Ocasio-Cortez. Thank you very much. I yield back.
    Mr. Lynch. The gentlewoman yields back. The gentleman from 
Wisconsin, Mr. Steil, is recognized for 5 minutes.
    Mr. Steil. Thank you. Thank you all for being here and 
testifying. I look at a lot of our housing and think, where are 
there areas where we can drive the cost down? In particular, we 
see onerous local restrictions becoming a major macroeconomic 
concern across the United States.
    And, Dr. Furth, in your testimony, I thought you 
thoughtfully pointed out some of the restrictions that are in 
place. You identified Silicon Valley, saying it has a small 
proportion of the United States population in 1990 than today, 
heavily based on local zoning and restrictions.
    And you see these impacts in areas where we have high cost 
of housing which seems to correlate with some of our other 
discussions here on homelessness in particular. And the heavy-
handed regulations in particular in Los Angeles, San Francisco, 
and New York City have a significant impact on our overall 
economy. Can you comment and quantify some of those impacts?
    Mr. Furth. I have seen three good macroeconomic papers that 
quantify the total impact of regulation in our kind of most 
regulated high-wage coastal cities. And those impacts range 
from something like our GDP would be one or two percent larger, 
that is overall U.S. income, would be one or two percent larger 
if we, if those cities instead had average levels of 
regulation. And then the most, I don't know if it is optimistic 
or pessimistic, says it would be more like nine or nine percent 
larger.
    And I think it is also important to note, most of that GDP 
gain would be going to people who are currently excluded from 
those job markets. So we should think of cities as metro, metro 
areas as fundamentally about job access. Right? People move to 
places, apart from some retirees, primarily because they want 
to work there. And when you say, oh, if you want to work in 
Silicon Valley, you need to be able to drop $1.4, $1.5 million 
on a starter home, you are excluding most people with middle-
skill levels from accessing those great job opportunities.
    Mr. Steil. So you are identifying whom it would hurt. The 
corollary of that is who is it helping then? Who are these 
local restrictions benefiting?
    Mr. Furth. So you really benefit if you were lucky enough 
to buy a home in one of these elite districts in 1960 or 1970. 
If you were sitting on that, especially in California where a 
State tax law prevents taxes from growing for longstanding 
homeowners, the sort of the home voter, the person who is in 
their house says, ``I have it made and I don't want anybody 
else to come in and mess this up,'' they are the primary 
beneficiaries of the exclusion.
    Mr. Steil. Thank you. I want to jump over into your 
proposed test as we look at your proposed replacement of some 
of the fair housing. And in particular in the market test, you 
drive into outcomes rather than inputs.
    Mr. Furth. Right.
    Mr. Steil. And in particular you are looking at how do we 
analyze potential rent decline, giving more people access to 
affordable housing, could comment on that test?
    Mr. Furth. Yes. So if you are a community--say you are in a 
really expensive metro area, rent is going to be high, right? 
So let us say that Mountain View, California, decided that ``We 
are going to be the NIMBY capital of Silicon Valley. We are 
going to build like crazy and have a huge diverse housing 
stock.'' Rent would still be high because it is in a very 
expensive metro area, but you would probably see rents starting 
to decline in that area.
    We see this already in D.C., where I live, where in the 
Navy Yard and H Street where there has been extensive building, 
rent has fallen and vacancies have gone up and that changes, as 
Dr. Olsen said, the balance of power between landlords and 
tenants. The best tool you have in your hand when you go to 
talk to a landlord is if their unit is vacant and they don't 
have somebody else to rent to.
    Mr. Steil. I appreciate you taking the time to examine 
where these outputs are and how we would measure declining 
rents and bringing people in. I appreciate your testimony 
today. I yield back the balance of my time.
    Mr. Lynch. The gentleman yields back. The gentlewoman from 
North Carolina, Ms. Adams, is recognized for 5 minutes.
    Ms. Adams. Thank you very much, Mr. Chairman. And I want to 
thank the chairwoman for putting this together. Thank you all 
for your testimony. Fair housing and housing and affordable 
housing is a particularly concerning issue for my district, the 
12th District in Charlotte. We're getting a lot of people in, 
we have a lot of buildings going up, and nobody can afford to 
live in them.
    But let me ask you about the NIMBYism question, and I want 
to direct this to Ms. Hill because of your background as an 
attorney. Everybody supports fair and affordable housing as 
long as it is not in my backyard. So wealthier, more affluent 
communities understand oftentimes how to manipulate the zoning 
laws and prevent rezoning efforts in their neighborhoods. It is 
also why the 2015 Affirmatively Furthered Fair Housing rule was 
so important. Could you speak to how HUD's rollback of Fair 
Housing regulations will allow NIMBY policies to continue to 
maintain segregated housing in many of our communities?
    Ms. Hill. Absolutely. I think without the planning process 
that requires local governments to ensure that people have 
equal access to communities, then we will continue to see 
exclusionary actions by communities that are opposed to people 
of color as well as lower-income residents moving in.
    In New Orleans, we find as we have been talking here today 
about income-based segregation, we are actually dealing--again, 
as someone on the ground doing this work every day, we are 
dealing in that community with not just income-based 
segregation but entrenched deep racial segregation.
    We know that after Hurricane Katrina, black renters in 
South Louisiana found out the same communities that provided 
working class whites with an affordable suburban housing 
alternative as well as an exit strategy to avoid school 
integration went to great lengths to ban or restrict rental 
housing in their neighborhoods. So income-based segregation is 
not necessarily the problem that we face, it is still deeply 
entrenched racial segregation, and NIMBYism does perpetuate 
that.
    Ms. Adams. Yes. Ms. Goldberg, would you like to respond?
    Ms. Goldberg. I think Ms. Hill said it all.
    Ms. Adams. Okay. Let me move to Ms. Johnson. There has been 
a lot of interest from this committee in the LGBTQ community. I 
have a very large community in my district, too. So let me ask 
about the housing protections that we already have that do 
apply to homeless shelters and services for people who are 
experiencing homelessness that receive Federal funds. So in 
your opinion, are the protections adequate to ensure that the 
LGBTQ people can get shelter and services when they are 
experiencing homelessness, and if not, why not?
    Ms. Johnson. Thank you so much for your question, 
Congresswoman. The short answer is no, unfortunately not. As we 
highlighted in the written testimony, LGBTQ people and 
especially transgender people are often turned away from 
shelter services altogether. An enforcement of the protections, 
while the policy exists, the enforcement is so often 
inconsistent and frankly, many LGBTQ people are fearful to even 
file a complaint against a service provider, because they have 
a fear that they won't get services. And so, again, like we 
were saying, it is important to have a policy, but the 
enforcement of those policies is critical.
    Ms. Adams. Thank you. Ms. Goldberg, redlining, we have 
talked a lot about it. Does it continue to manifest in other 
ways? You have talked about some of them in terms of the 
practices, but it appears that it has not ended. So are there 
other ways that it continues to manifest itself?
    Ms. Goldberg. It does seem to continue in multiple forms, 
doesn't it? We still see kind of your garden variety 
discrimination that keeps people of color out of other 
communities, out of white communities, or integrated 
communities because real estate agents won't show them houses 
there and things like that. So, you have that. But some of the 
ways that the advertising for housing works as we talked about 
in relation to our Facebook case and others, and particularly 
some of the ways that we have touched on a little bit in the 
hearing today about the kind of economic legacy of segregation, 
and what that means for the kinds of financial services that 
people of color used as compared to whites continues to 
disadvantage people in their search for a mortgage.
    Ms. Adams. Thank you, ma'am. I yield back, Mr. Chairman.
    Mr. Lynch. The gentlelady yields back. The gentlewoman from 
New York, Mrs. Maloney, who is also the Chair of our 
Subcommittee on Investor Protection, Entrepreneurship, and 
Capital Markets, is now recognized for 5 minutes.
    Mrs. Maloney. Thank you. I thank my friend for yielding and 
I apologize to my colleagues that I was in another hearing and 
could not be here for a lot of the important discussion on this 
critically important topic.
    My first question is for Ms. Goldberg. As you know, one of 
the most important aspects of the Fair Housing Act is that it 
allows for so-called disparate impact claims, which prohibit 
practices that have ``disproportionately adverse effects on 
minorities,'' and can't be justified by any other legitimate 
rationale.
    So this allows us to root out unconscious bias or even bias 
that is unconscious but well-hidden. I have signed multiple 
amicus briefs supporting the use of disparate impact claims. 
And in fact, the Supreme Court explicitly upheld disparate 
impact claims under the Fair Housing Act in 2015.
    But now, the Trump Administration is reportedly trying to 
weaken the disparate impact rule and we know that HUD has 
recently submitted proposed changes to this rule to OMB. Are 
you concerned that weakening HUD's disparate impact rule will 
allow clear housing discrimination to go unpunished?
    Ms. Goldberg. Thank you for that question, Congresswoman. 
We are very concerned. You know, as we have talked over the 
course of this hearing about many different ways that disparate 
impact has protected all sorts of people from policies that 
appear neutral on their face, but work to the disadvantage of 
members of protected classes. And that kind of discrimination 
is every bit as harmful to the people who suffer from it as the 
more blatant, kind of in your face I am going to rent to you 
because of, plug in your characteristic there.
    So having access to this tool is enormously important in 
preserving the Fair Housing rights of people in this country. 
It is long-established, it has been supported by courts all 
across the country. It has had bipartisan support, and as far 
as we can see there is no good reason to go back to the drawing 
board and try to rewrite this rule altogether. In fact, there 
will be some real disruption I think and costs to industry to 
have to accommodate changing to comply with a new rule.
    And it seems to be driven in part by some industry 
concerns, I would just say the insurance industry in 
particular, has been trying for many, many years to get out 
from coverage under the Fair Housing Act and the disparate 
impact rule in particular.
    Mrs. Maloney. Thank you. And, Ms. Goldberg, while we know 
there have been substantial technological shifts in the housing 
market, we don't know much about how these shifts are affecting 
fair housing enforcement. Is there currently a way to know how 
many fair housing complaints related to online platforms have 
been filed with HUD or other reporting agencies, and do you 
think HUD should report this data and if it is not being 
collected, should we be collecting this data, and how would 
this--how would reporting this data to HUD help fair housing 
enforcement? And I think we know, with all the changes, this is 
an important goal we need to look at.
    Ms. Goldberg. Right. I do not believe that HUD collects 
information on fair housing complaints based on online 
platforms. Given what we learned in our Facebook case, I think 
that it would be unlikely for people to know that they had not 
been shown an ad, because at least in the Facebook context, the 
way the platform operated meant that certain ads never got in 
front of certain people. And if you don't know that you have 
been discriminated against, you are unlikely to file a 
complaint. And I think that is a real challenge that we face 
and requires a different approach to enforcement.
    Mrs. Maloney. Okay. Ms. Johnson, you mentioned in your 
testimony the LGBTQ community experiences unusually high rates 
of homelessness. And what I found particularly troubling is the 
survey you cited which found that nearly one-third of 
transgender people who tried to access a shelter were turned 
away due solely to their transgender status. You mentioned that 
HUD's equal access rule which was just finalized in 2016 is 
intended to ensure equal access to shelters for transgender 
people. So my question is, is HUD's equal access rule working? 
Is it actually ensuring that transgender people have equal 
access to shelters and if not, what can be done to strengthen 
this rule?
    Ms. Johnson. Thank you. And again, enforcement around, 
well, one it is important, again, to say we have to explicitly 
name sexual orientation as a protected class. We have to do it. 
And that is the first place that we can go, and so I just 
wanted to be really clear that we need to do that before 
enforcement to the degree it needs to be can even happen.
    I think the other piece of this is that in addition to 
people who are turned away from shelters and homelessness that 
they are receiving is that because of homelessness, so many 
people are being, are also incarcerated and so we are also 
dealing with multiple forms of discrimination so based on 
gender, sexual orientation, but often spurs into other types of 
discrimination.
    Mrs. Maloney. Thank you.
    Mr. Lynch. The gentlelady yields back. The Chair now 
recognizes the gentleman from Illinois, Mr. Garcia, for 5 
minutes.
    Mr. Garcia of Illinois. Thank you, Mr. Chairman. Good 
afternoon to all of the panelists. We have heard how redlining 
and housing discrimination persists 50 years after the Fair 
Housing Act and as an example, Latinos and African Americans 
are more than twice as likely as whites to be denied mortgage 
credit or fear that they will be denied if they applied for a 
loan. The Robert Wood Johnson Foundation and the Harvard T.H. 
Chan School of Public Health found that one out of three Latino 
adults reported having personally experienced discrimination in 
trying to rent a room or apartment or buy a house.
    Ms. Goldberg, I would like to ask you a question. Your 
organization conducted an analysis of staffing at the Office of 
Fair Housing and in 1994, there were about 740 staff people in 
that office. They have declined since then. As of 2018, the 
number of employees in their office is about 480. What funding 
and resource challenges do HUD officials face in enforcing the 
Fair Housing Act, one, and 2, given the clear and significant 
challenges we face with housing discrimination, how can the 
Fair Housing Act be enforced if there is no one to enforce it?
    Ms. Goldberg. Thank you for that question, Congressman. I 
would agree that the Office of Fair Housing and Equal 
Opportunity at HUD needs greater resources, it needs more 
people. It needs more training for its staff. It needs the kind 
of technological resources necessary to confront the challenges 
in the marketplace today, and all of that, I guess the bottom 
line comes down to money. And we would encourage more of that.
    I would also say that what we have seen and other members 
of the committee have alluded is that the frontlines of defense 
in this fight for fair housing really rest with organizations 
like Ms. Hill's and many other across the country that are in 
their community. They know their community, they are doing 
education in their community so people are aware of their 
rights and know what to do if they think their rights have been 
violated, and that help people through that process of 
vindicating their rights. And so more funding for the groups on 
the ground is also really critical to accomplishing that goal.
    Mr. Garcia of Illinois. Thank you. Mr. Chairman, at this 
point, I would ask unanimous consent to enter a 2013 report 
from the Equal Rights Center into the record.
    Mr. Lynch. Without objection, it is so ordered.
    Mr. Garcia of Illinois. Ms. Goldberg, continuing, can you 
describe the role of testing and how important it is in 
combatting discrimination in housing?
    Ms. Goldberg. Sure. We talked about this a little bit 
earlier. Testing is a vital tool to use to ferret out 
discriminatory practices, discriminatory behavior because it 
lets you determine that the, whether or not I should say, the 
protected characteristic of a person is the key factor in their 
lack of access, their being denied for a unit whether that is 
to buy a home, to rent a place et cetera, et cetera. It really 
lets you control all of the factors in the equation except for 
their race or their national origin or the fact that they have 
kids or a disability. And without it, it would be very 
difficult in many cases to determine whether or not 
discrimination is happening.
    Mr. Garcia of Illinois. Thank you. One last question. 
BuzzFeed reported on December 14, 2018, that loan officers at 
banks were instructed by HUD personnel to not approve loans for 
DREAMers or the class of young people known as DACA, 
individuals whom, as you know, qualify for these loans. And I 
quote, in a--the story in Chicago specifically had 42 FHA bank 
loans approved for DACA recipients in recent years, about 10 
percent of this total client base. HUD officials advised the 
bank that DACA recipients are not eligible for these loans. In 
four separate phone calls in a recent month to the FHA hotline 
for lenders, the loan officer said he was told that the agency 
would no longer ensure that DACA recipients received home 
loans. Has HUD provided any guidance on this issue?
    Ms. Goldberg. In our conversations with HUD, they tell us 
that they have not changed the policy, and that while DACA 
recipients were eligible for FHA loans before and as far as the 
folks at the top are concerned, they are eligible for them now. 
But as you report, and as I have seen others reporting as well, 
that is not the message that is getting out in the field. And I 
think that what is needed is for HUD to make a very official 
and very firm and clear statement that policy has not changed 
and that DACA recipients are eligible to receive FHA loans.
    Mr. Garcia of Illinois. Thank you. I yield back my elapsed 
time, Mr. Chairman.
    Mr. Lynch. The gentleman yields back. The gentlewoman from 
Pennsylvania, Ms. Dean, is recognized for 5 minutes.
    Ms. Dean. Thank you, Mr. Chairman. Like the gentlewoman 
from New York, I apologize for not being here before. I was 
also in another committee, and I find it fascinating that it 
was such a related conversation. I was in the Judiciary 
Committee and we were talking there about the Equality Act, 
H.R. 5. And so, Ms. Johnson, as you very aptly said, we must 
name sexual orientation as a protected class.
    The conversation in these two committees is going in the 
right direction, as frustrating as it is to run between the 
two. So please forgive me, but know that I also want to note, I 
am new here, but this majority and these two committees are 
tackling very important issues of equality and fairness. And 
boy, I am glad to be a part of those conversations.
    Ms. Goldberg, I was thinking about you and I read your 
testimony and the issue of disparate impact. And I say that 
because I represent Montgomery County, Pennsylvania, Norristown 
specifically, and just to go back into the issue of disparate 
impact, I know you have talked about it with some others but I 
am worried about something you said in your testimony, that it 
is possible that that rule would be eviscerated.
    Let me just tell you quickly the story and I hope I am not 
repeating anything about what happened to the woman in 
Norristown. We know that disparate impact claims are paramount 
to allowing victims of discrimination to challenge policies 
that wrongly keep from obtaining safe housing, or worse, 
endanger them or their loved ones. Specifically, attorneys use 
these rules to fight unintended consequences of nuisance 
ordinances.
    For example, in my district in Montgomery County, 
Pennsylvania, in Norristown specifically, Latisha Briggs was a 
domestic violence survivor who had sustained life-threatening 
injuries from being beaten by her boyfriend and was 
simultaneously threatened with eviction after the police were 
called to her apartment the third time under a nuisance 
ordinance. Her injuries were so horrific that neighbors called 
the police and she had to be airlifted to the hospital and 
treated.
    The case provides an important example of how disparate 
impact claims are imperative to helping domestic violence 
survivors and particularly women. So, Ms. Goldberg, under the 
Trump Administration and the possible threatening of 
evisceration of the rule, can you just speak to us about what 
the Administration seems to be signaling they want to do with 
the rule and the grave dangers of that?
    Ms. Goldberg. Thank you for that question, and thank you 
for that story. I hope that the woman you talked about survived 
and recovered.
    Ms. Dean. She has survived.
    Ms. Goldberg. That is a perfect one of many, many examples 
of the way that disparate impact has protected people in their 
housing. So we don't know exactly what the Trump Administration 
is going to propose, because we have yet to see the proposed 
rule. It is, as far as we know, sitting right now at OMB 
awaiting approval to be published for public comment, but what 
we do know is what HUD asked about in its advance notice of 
proposed rulemaking (ANPR) last summer.
    And I would, for more detail, refer you to the comments 
that we and a long list of other organizations filed in 
response to that ANPR. Several of the issues that HUD raised as 
questions that it was considering, which makes you think that 
these may be directions it wants to take in changing the 
regulation, are very, very concerning. For example, should 
there be a wholesale exemption for certain types of businesses? 
Our read of the language they used was that there is a question 
about whether homeowners' insurance should be exempted whole 
hog because it is subject to regulation at the State level and 
kind of alleging, the industry for many years has alleged 
conflict between the Fair Housing Act and the McCarran-Ferguson 
Law.
    So there are several other things like that that are in the 
ANPR that just raised huge red flags for us about the direction 
that the Administration might take, that would really make this 
rule unworkable and unable to protect women like your 
constituent.
    Ms. Dean. Thank you very much.
    And, Ms. Johnson, I was thinking maybe you could help me, I 
am listening to testimony in the other hearing room about LGBTQ 
housing, not just shelter but sometimes in shelter, and the 
great fear that a transgender person might get into a shelter 
and assault women. Would you like to speak to that kind of 
phantom fear-mongering? Sorry, I did just speak to it, didn't 
I? I just editorialized my own question, that is not right.
    Would you like to speak to the reality of LGBTQ issues in 
shelters? And then also in housing discrimination in a larger 
sense, not just in shelters?
    Ms. Johnson. Thank you so much. We know that transgender 
people, particularly transgender people of color, are more 
likely to experience poverty and homelessness because of 
systemic discrimination. And access to emergency shelter is 
critical to ensuring the health and safety of everyone facing 
housing insecurity.
    The reality is that we are seeing one in four transgender 
people who are homeless at some point in their lives. What is 
never okay is flat-out denying people places to live. And this 
is something that we really have to address. We have to be 
talking about gender identity. We have to be talking about 
sexual orientation and we have to acknowledge that there is 
real discrimination happening for people who are same-sex 
loving, who do identify as transgender. And many of those 
people are also people of color, right? So the different types, 
the overlapping amounts of discrimination are also very real 
and create even more undue burden when you are trying to have 
and keep secure housing.
    Ms. Dean. Thank you very much.
    And I see my time has expired. I seek unanimous consent to 
introduce an article for the record. It is an NPR report on the 
woman that I talked about in Norristown. and I offer that up 
for the record.
    Mr. Lynch. Without objection, it is so ordered.
    Ms. Dean. Thank you, Mr. Chairman.
    Mr. Lynch. The gentlewoman yields back.
    And the gentlewoman from Texas, Ms. Garcia, is recognized 
for 5 minutes.
    Ms. Garcia of texas. Thank you, Mr. Chairman.
    And I, too, apologize to the whole panel. I, too, was 
sitting in Judiciary this morning. And I sometimes feel like I 
should be an octopus so that I could just have my hands in 
everything but that is not possible.
    But to add to my colleagues' comments, help is on the way. 
I think we will successfully get the Equality Act on the 
committee and then we will face the challenge of the votes in 
the House, and then the Senate, of course. But I I wish it 
could be simpler, that we could just have one statement that 
said, no discrimination, period, but it is not that way. And we 
all have to deal with it.
    So, for me, and especially coming from Houston and I wanted 
to start with Ms. Hill, I believe it was you who had the study, 
or no, actually, it was Dr. Olsen.
    I don't know why anybody did a study on the inequities in 
terms of facilities that are found in metropolitan areas 
because I could have saved you all the dollars, living in 
Houston. And it seems to me that it is more than just what you 
are mentioning in here. You say that local establishments and 
amenities including banks and other institutions and 
recreational facilities are less prevalent in communities of 
color than in white communities.
    I think it is more than that. Did you also look at 
healthcare and educational facilities and employment centers? 
It seems to me that it is more than just that because it is, 
and it goes to the heart of a good quality of life and our own 
well-being and our capacity to get a real fair shot at the 
American Dream, doesn't it?
    Ms. Olsen. Yes. And we have looked at, so financial 
services, both traditional and alternative. We looked at 
healthcare facilities. We looked at healthy food like grocery 
stores where you can find whole foods, and then also 
recreational amenities like playgrounds for kids. Not just 
that, there are also gyms and parks of different kinds, so 
there were great disparities.
    And Houston actually had kind of the strongest disparity, 
particularly in the financial establishments, so traditional 
banking, and then also alternative finance. Houston was 
probably where there was the greatest divide between 
predominantly white communities and predominantly black or 
Hispanic communities.
    Ms. Garcia of texas. Right. So I guess I was trying to 
figure out just how something in fair housing would really help 
that because to me sometimes it really is about incentives that 
we can provide for economic development, incentives that we 
could provide for businesses moving into communities of color. 
I just wondered how we really connected that and that is a 
question for anybody nn the panel, so you might want to take a 
stab at that one?
    Ms. Olsen. I probably would like to make this more 
tangible. So the inspiration for this research is very much in 
recognition of the fact that place matters so much to so many 
other economic outcomes.
    Ms. Garcia of texas. Because the point is, ultimately, it 
is who you are and what you are able to do.
    Ms. Olsen. Right, exactly. Your social mobility, your 
ability to start as a low-income family, say, end up in the 
middle class one day, so all of these things, place is so very, 
very, very important, so why this study, why this amount of 
research? Because I think when you say that to someone that 
place matters so much, sometimes you need to take that next 
step and make it more tangible, right?
    Like what is actually, this really gets at the experiential 
difference that you can see and observe, but there are many 
other differences and disparities between communities of color 
and, say, predominantly white. And we measure those sorts of 
things too in terms of affordability differences--
    Ms. Garcia of texas. But what I am driving at is, what 
comes first, the affordable housing that the developer is 
building, or do the amenities that come with it and how you can 
get the two together?
    Ms. Olsen. Yes. I think where it comes first goes back 100 
years in terms of redlining and then perpetuated through land 
use and regulation zoning.
    Ms. Garcia of texas. I wanted to ask about the redlining, 
but quickly, Ms. Hill, if you can add to that?
    Ms. Hill. Yes, I would just say that it is important to 
think about all things happening at once, rather than one thing 
happening first because we know that it is going to take a 
multitude of policy changes and a wide-ranging approach in 
order to bring about true equitable access to housing.
    Ms. Garcia of texas. Because it impacts everything, the job 
opportunities, how much you earn, whether you have daycare, 
what schools you have. I was just totally confounded with your 
whole Facebook case. And what really struck me was your words 
when you said, they looked at the no-discrimination options. I 
mean why did they even have options? I find it baffling that 
you are actually talking about removing discriminatory options.
    Ms. Goldberg. It is an excellent question, and I wish I had 
an answer. Can I just add one thing on your last question? I 
know time is up but the Affirmatively Furthering Fair Housing 
Rule that we have been talking about was designed to get at 
exactly what you are talking about, what kinds of investments 
do we need in communities in terms of all of that kind of 
economic engine components and what do we do about housing? And 
where across the metro, where across the city do we make 
affordable housing available? Do we need to target it to low-
income communities, do we need to target it elsewhere?
    The answer in each community will be different. But that is 
what the rule was intended to focus on, both of those things.
    Ms. Garcia of texas. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lynch. The gentlelady yields back.
    And the gentleman from Guam, Mr. San Nicolas, is recognized 
for 5 minutes.
    Mr. San Nicolas. Thank you, Mr. Chairman. And I appreciate 
everybody being present here today. I particularly appreciate 
the committee for holding this hearing entitled, ``The Fair 
Housing Act: Reviewing Efforts to Eliminate Discrimination and 
Promote Opportunity in Housing.''
    Well, there has been a lot of talk about redlining and the 
devastating effects that it has had on communities of color. 
But one of the most unfortunate facts that we deal with today, 
that I think this country is very blind to, is the fact that 
our territories are grossly redlined. They are very grossly 
redlined.
    I represent the territory of Guam, and 91 percent of our 
population would qualify as minorities in this country. In 
listening to the conversation of all the members of the panel, 
it sounds like everybody here is very much against the idea 
that we are going to be excluding anybody based on protected 
classes.
    And unfortunately, political jurisdiction is not a 
protected class. That being the case, as much as we have 
champions here on the panel, there are just certain things that 
I, in searching throughout the discussion uncovered, that just 
kind of highlight why territories need to be taken into very 
fair consideration.
    Dr. Olsen, I really appreciated your testimony. I went to 
zillow.com and I punched in Guam and there is no Guam. Guam has 
160,000 people in its 210 square miles, compared to Fairfield, 
California, with 116,000 people in 41 square miles, and 
Fairfield, California, is on zillow.com.
    When I punched in on Zillow loans, none of the territories 
are able to access any of the Zillow loans.
    Ms. Johnson and Ms. Goldberg, you represent national 
organizations and I wanted to ask, do your national 
organizations also include research on the territories with the 
respect to the groups that you represent?
    Ms. Goldberg. That is an excellent question.
    Mr. San Nicolas. It is one of the reasons why I am on this 
committee.
    Ms. Goldberg. And I have to confess that I am truthfully 
not a data person, and I am not clear about the data that we 
have for Guam and other territories that would help guide some 
of this conversation.
    I can say we do not have a member there. It is one of many 
places where we don't, so that is not a function necessarily of 
being a territory or we would say that about South Carolina, 
which doesn't have a fair housing organization either.
    But I think you raised an excellent question. We see 
parallels in some ways I think to what has been going on in 
Puerto Rico, for example, post-hurricane there, and in other 
ways as well. And I think it is one that we need to take back 
and take a close look at it and figure out how we can help.
    Mr. San Nicolas. Thank you, Ms. Goldberg.
    Ms. Johnson?
    Ms. Johnson. We have done some research with the trans 
discrimination survey in Puerto Rico but for the most part we 
have done organizing work and less research, and we actually 
don't do on-the-ground work in any of the territories.
    Mr. San Nicolas. I appreciate everybody's candor. And the 
reason why I wanted to raise this issue was I really think that 
the time has come for this country to stop neglecting the 
territories. Everyone here on this panel, I know are good 
people. No one is intentionally doing it.
    I wrote down a quote, I think from you, Ms. Goldberg, 
earlier, ``Many acts of discrimination are carried out by 
policies and procedures that might be unintentional.'' And I 
think that is definitely a circumstance that we are dealing 
with here today.
    Our territories are predominantly minorities. We can talk 
about trying to address minority disparities in various 
districts across the country, but our territories are mostly 
minorities, concentrations of minorities. And so, if we are 
really looking to address the disparities with respect to 
access to credit, access to information about housing, access 
to data about what the conditions are in our areas, we need to 
make sure that we are not forgetting our territories when we go 
about our work.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentlewoman from 
Massachusetts, Ms. Pressley, for 5 minutes.
    Ms. Pressley. Thank you. So when President Johnson signed 
the Fair Housing Act into law he stated, ``Now with this bill, 
the voice of justice speaks again. It proclaims that fair 
housing for all, all human beings who live in this country, is 
now a part of the American way of life.
    ``Housing is a human right. Housing is a critical 
determinant of health, of economic opportunity, of social 
mobility.''
    In my district, the Massachusetts 7th, an urban district 
that spans from Cambridge to Roxbury housing and income 
disparities have led to a gap in median income of $50,000. As a 
result, the life expectancy rate drops from 92 years old in the 
Back Bay to 62 years old in Roxbury.
    Though the housing market has recovered from the 2007 
recession, low-income minority communities are still recovering 
from being the victims of rampant foreclosures and predatory 
subprime lending. They still face immense barriers to 
homeownership, discriminatory practices, with minority 
homeownership rates continuing to lag and our affordable rental 
prices is only worsening.
    And yet in the face of this blatant deterioration of 
American families and of the housing market, we find ourselves 
stuck with an Administration that deliberately works to 
reinstate the very housing discriminations that we sought to 
dismantle through the 1968 Fair Housing Act.
    I am delighted to see all of you here today as witnesses, 
but I must admit I wish Secretary Carson were here.
    I know we have a chairwoman who has a gavel and is not 
afraid to use it. So I look forward to him joining us one day, 
soon.
    As someone who was raised by a tenants' rights activist in 
a low-income neighborhood, I witnessed firsthand the challenges 
faced by those of us who were left out of the housing 
conversation.
    I am, again, grateful for each and every one of you today. 
And I want to get in the balance of my time into some questions 
specifically around the Housing Choice Voucher Program.
    Ms. Goldberg, the Housing Choice Voucher Program is the 
largest source of Federal rental assistance and has a great 
potential to help families choose where they want to live. 
However, a recent report by the Poverty and Race Research 
Action Council and the Center on Budget and Policy Priorities 
found that families using a voucher in metropolitan areas are 
disproportionately concentrated in low-opportunity and racially 
segregated neighborhoods.
    In the Boston area, just 14 percent of families with 
children using a Housing Choice voucher are living in high-
opportunity neighborhoods.
    How can the Housing Choice Voucher Program be improved to 
increase access to opportunities for families and reducing 
poverty?
    Ms. Goldberg. Thank you for that question. It can be a very 
important tool to expanding choice for families, but it needs 
some tweaking.
    HUD has taken some first steps at that although I will say 
this Administration tried to delay the rule, they have moved 
that ahead, and only reinstated it after being sued.
    But Ms. Hill started to talk about this a little bit 
earlier that housing prices vary by geographic area, and the 
way that the housing voucher has worked is that we set one rent 
limit, and then the voucher will pay for the amount of that 
rent that is above 30 percent of your income, you as the 
tenant. And so that lets you afford apartments in some 
neighborhoods, the neighborhoods where rent are lower, but not 
in neighborhoods that are higher, which are often the ones with 
good schools and good transportation, and all of those things 
that we all look for in a neighborhood.
    There is the opportunity to adjust those rent limits to 
conform with the rents in a smaller area than the whole 
metropolitan area. And now, there is the mobility project that 
HUD has authorized for I believe it is 24, that HUD is now 
requiring in 24 metropolitan areas around the country. It can 
be done voluntarily in others. And that is the kind of change 
that lets Housing Choice Voucher--
    Ms. Pressley. I'm sorry, reclaiming my time.
    Ms. Goldberg. Sorry.
    Ms. Pressley. I am running out of time. Yes or no, is there 
an argument to be made that race and not income can better 
explain the disparities we see in access to opportunity?
    Ms. Goldberg. Yes. I think that is an excellent question. 
And yes, I would say.
    Ms. Pressley. Okay.
    Ms. Goldberg. Because we see discrimination against people 
of color, for example, at all income levels; it is not just a 
question of income.
    Ms. Pressley. Very good, okay.
    Ms. Goldberg. It is also a question of race.
    Ms. Pressley. Thank you. Reclaiming my time, the 
Massachusetts 7th Congressional District is home to the largest 
public housing authority in New England. How does the FHA 
ensure protection from housing discrimination for vulnerable 
groups and what does this practice look like? I have 8 seconds.
    Ms. Goldberg. I am not sure I am the best person to answer 
that. I know that there have been a number of different kinds 
of housing--
    Ms. Pressley. I am directing that to Ms. Hill.
    Ms. Goldberg. I'm sorry.
    Ms. Pressley. Yes?
    Ms. Hill. So the question is about public housing 
authorities?
    Ms. Pressley. Yes. And how do we protect vulnerable groups?
    Ms. Hill. I do think that working with housing authorities 
to ensure that they are administering the voucher program in a 
way that de-concentrates poverty but truly allows access to 
neighborhoods of opportunity is a great place to start.
    We know that across the country there has been a trend 
toward getting rid of the traditional public housing 
developments and moving public housing residents to the voucher 
system. And so, with the majority of folks in that system 
rather than living in public housing we have to ensure that we 
are administering the voucher program in a way that does give 
access to these high-opportunity neighborhoods.
    Ms. Pressley. And it seems since our population is aging, 
the Baby Boomers are booming, what are we doing specifically or 
what can we do to protect the retirees--am I out of time?
    Mr. Chairman, I'm sorry. I must have gotten the wrong clock 
here. I yield back. Thank you.
    Mr. Lynch. The gentlelady yields back.
    The gentlewoman from Michigan, Ms. Tlaib, is recognized for 
5 minutes.
    Ms. Tlaib. Thank you, Mr. Chairman.
    I want to thank all of you so much for your continued 
advocacy to also work extremely hard to put a human face behind 
some of these legal terminologies that are I think are in place 
here.
    It is very odd because Secretary Ben Carson and I went to 
the same high school. I mean, I remember as a 16-year-old girl 
in high school, when he came in and he was phenomenal. He had 
just written a book about his historic surgery in separating 
twins. It was phenomenal. And he actually said, ``It doesn't 
matter how you grew up, if you work hard enough, you will 
succeed.''
    So it is really troubling that in January 2018, under 
Secretary Carson's leadership, HUD halted implementation of the 
agency's Affirmatively Furthering Fair Housing rule. Under his 
leadership, he reportedly proposed removing the words, ``free 
from discrimination,'' from HUD's mission statement.
    In March, 2017, under Secretary Carson's leadership, HUD 
withdraw a Federal Register notice regarding the proposal to 
require owners and operators of HUD-funded homeless shelters to 
post a notice informing individuals of their rights under HUD's 
``easy access in accordance with an individual's gender 
identity and community planning development programs.''
    Even though we have seen a huge hike, I think the LGBTQ 
youth in the U.S. are 120 percent more likely to experience 
homelessness than non-LGBTQ youth, and 94 percent of the 
service providers report working with LGBTQ youth today.
    I come from a community in which literally every corner is 
a reminder of the civil rights movement. I remember in college 
signing up for Fair Housing in Detroit as a secret shopper, and 
I was very good at it. I took great notes and came back and 
talked about watching these slides, talking about little notes 
or little questions they would ask you, do you have children 
and things like that.
    They are getting savvy in how they go around this and that 
is why disparate impact is so important. Many of you know I 
intend to introduce the Justice for All Civil Rights Act. In 
over 50 years, they have whittled the courts. Everyone has 
watered down and gone around this idea around having to show 
intent, when they are like, no, they are working the system and 
now they are going around and showing--and that is why the 
disparate impact is so important, looking at the implementation 
of these policies and what they result in.
    And so, I want to know from all of you, give me some 
examples of just how creative they are in getting around that. 
And especially because many of my residents going door to door, 
especially my colleague from Massachusetts, I think we talked 
about this before, of women, women with children being targeted 
now.
    Give me some examples of what you have actually seen them 
use, some terminologies getting around this, and why disparate 
impact is so important?
    Ms. Johnson. I wasn't planning a personal story, but I will 
tell one. I am a single mom of two and I wanted to live in D.C. 
I was looking for a neighborhood where I could feel good about 
where my kids went to public school. I went to public school, 
and I wanted them to go to public school. I was looking to rent 
a house.
    The landlord met my kids. I am who I am. My partner came 
and visited one of those times and the landlord said, ``I am 
not sure this is going to work for you.'' And I said, ``It is 
four people in a three-bedroom house that is three levels, that 
is walking distance to the school.'' So language like that, a 
landlord where it is coated language, ``I am not sure this is 
going to work for you.'' It was like a smack in the face, like 
I didn't even know what to do with that. And I am in a 
privileged place. And so, that is one example of the many, many 
ways we see coded language used.
    Ms. Tlaib. One of the things that I have also been hearing, 
coming from Detroit, Wayne County, which still contains very 
segregated communities to this day, you know, 51 years after 
the passage of the Fair Housing Act, the historic, what we call 
the Detroit Eight-Mile Wall that was erected to separate blacks 
and whites still exists. It is still the symbol. When I drive 
by, it is still there.
    Will addressing restrictive zoning policies alone eliminate 
Fair Housing concerns in residential re-segregation? I know it 
is a tough question but it is important.
    Ms. Hill. I would say, absolutely not. It is one important 
tool, but it is not going to get the job done. We need to 
attack this on all fronts and just changing the zoning, there 
is no one magic bullet, if there were we would have found it 
already. As you have mentioned, it has been 51 years and we 
haven't solved the problem yet. That one solution will not do 
it.
    Ms. Goldberg. I would just add to that if I could, changing 
zoning does not make housing affordable. Or it depends perhaps 
on affordable to whom? You need to be clear. So if you are 
talking about people who are low- and moderate-income, no 
housing that you construct in this day and age, even if you can 
lower some of the costs through zoning changes is going to make 
the housing affordable.
    It is like putting water in a trough but you can't make the 
horse drink. You can't make the developer build it.
    And as Cashuana said, it only gets at one small piece of 
the problem. We have many more other parts of it that need to 
be addressed as well.
    Ms. Tlaib. Thank you all.
    And, Mr. Chairman, if possible, I would like to submit for 
the record a March 21, 2019, article in the Detroit Free Press 
talking about few black people getting home mortgages in 
Detroit, and it is showing the data of literally half of the 
home mortgages loans in 2017 were white residents in Detroit, 
and I would like to submit this for the record.
    Mr. Lynch. Without objection, it is so ordered.
    The Chair now recognizes himself for 5 minutes.
    First of all, I want to thank all of the panelists for your 
remarkable testimony and for helping the committee with its 
work.
    Ms. Johnson, I have a question. In your testimony, you 
mentioned that there are 21 States, including the District of 
Columbia, that have language that prevents discrimination 
against LGBTQ persons in housing. Do we have comparative data 
to strengthen the argument on the national level that we should 
adopt this nationally? Are there examples where the data shows 
that this is a great thing, it is working and it will help more 
families if we go nationally?
    Ms. Johnson. I am sure we could get some data to the 
committee that could help you with that.
    Mr. Lynch. Yes. That would be enormously helpful, I think. 
And I am sure it exists. It is just that it hasn't been 
collected or quantified yet.
    My own situation, I grew up in public housing. My dad says 
there were times in our lives when we had to save up to be 
poor. And I first got involved in housing representing families 
in the old Coney housing projects. That is sort of how I got 
elected here, just cases on lead paint, asbestos, six kids and 
a mom living in an apartment with one bedroom and one bathroom, 
those type of things.
    But the world has changed, even the process of searching 
for and acquiring an apartment, everything is mobile now.
    And I know, Ms. Hill, in some of your testimony and others, 
you talked about how Facebook and others have sort of 
manipulated this in a way that furthers discrimination.
    The democratization of the housing process through mobile 
should actually be, could be an instrument of equality rather 
than discrimination. And I am just wondering if--I know Zillow 
has really gotten into this big time in terms of offering 
apartments to rent and to buy.
    Is there any recommendation that you would, any of you 
would make with respect to sort of the digitization, the social 
media aspect of this in terms of just transforming the whole 
rental process, especially for young people, they are all on 
mobile, everything is on their phones and Smartphones. So our 
regulations are set up for the old world, they really are, and 
we don't really get at this.
    And I am just wondering, in your experience, if you would 
offer some recommendations in how we might better protect 
people from discrimination in housing?
    Ms. Goldberg. Is that directed to any particular one of us?
    Mr. Lynch. Okay, anyone, yes. Dr. Olsen?
    Ms. Olsen. I think one of the ways I can respond, as 
someone who is--I mean, I study housing markets at Zillow but 
someone who has worked at Zillow now for over 6 years, that a 
big part of our overall philosophy is to try and provide that 
information in a way that is easily consumable, both for 
renters and buyers on our site in order to do as you say, to 
democratize the access to that information, to solve for a lot 
of those information asymmetries.
    But I think that as this panel has also acknowledged, there 
is still a lot of room to grow, there are a lot of things that 
we need to recognize when we put these kinds of things in 
place. And my organization is dedicated to looking at those 
issues. We have formed working groups in order to try and 
tackle concerns that this panel has had.
    I can't, as not, looking at this issue really deeply in 
terms of the policy perspective of it but I could say this is 
central to our value system and it is an important thing for 
everyone to be looking at.
    Ms. Goldberg. I would just add to that if I could that I 
think you are completely right, that mobile gives a lot of 
opportunities or possibility for democratization. But if the 
systems that are utilizing that mobile technology are built on 
discriminatory data and reflect the biases that are inherent 
and historic in our society, then it is not going to work the 
way we would all hope it would work. And so, we need more 
transparency, we need better oversight, and we need to make 
sure that the laws that govern the use of that kind of 
technology like the Communications Decency Act don't impede our 
ability to use the Fair Housing Act to make sure that 
discrimination is not taking place on mobile platforms or 
anything else.
    Mr. Lynch. Right. Thank you very, very much.
    I see my time has expired.
    I would like to thank all of our witnesses for their 
testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And this hearing is now adjourned. Thank you.
    [Whereupon, at 1:05 p.m., the hearing was adjourned.]

                            A P P E N D I X



                             April 2, 2019
                             
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
